Semiannual Report of the
Inspector General                    _,_
US. Department of Labor
Office of Inspector General

April 1, 1986 - September 30, 1986
YQU'¥# QQ_ Ou_ Humber
         Cajt




          To Repo_
       Fraud, Was_®
            or
          Abuse.
202-357-02271800-414-540!1
Semiannual Reportof the
InspectorGeneral
U.S. Department of Labor
Office of Inspector General
J. Brian Hyland
Inspector General


April 1, 1986 - September 30, 1986
                                         TABLE     OF    CONTENTS



Inspector           General's          Message          .............                       i

Overview          .......................                                                 iii


Office       of     Audit         ...................                                       I


Office       of     Investigations               ...............                           43


Office       of     Labor      Racketeering             .............                      55

Office       of     Resource        Management           and
   Legislative              Assessment           ...............                           67


Complaint           Handling        Activities            ............                     75


Money      Owed      to     the    Department             ............                     77


Appendix          .......................                                                  81

         Selected         Statistics             ...............                           83
        Summary     of Audit     Activity      of DOL      Programs                ....    84
        Summary     of Audit     Activity      of   ETA    Programs                ....    85
        Summary     of Audits      Performed      Under     the
           Single    Audit   Act     ................                                      86
        Audits    by Non-Federal         Auditors       ..........                         87
        Summary     of Audit     Resolution       Activity       .......                   89
        Status    of Audit     Resolution        Actions      on
           Beginning       Balance           of Unresolved             Audits   .....      90
        Unresolved       Audits           Over    6 Months          Precluded
           From    Resolution               ................                               91
        Summary      of Audit      Reports      Issued     During     the
           Current      Reporting       Period     ............                            92
        List    of Final      Audit     Reports      Issued     ........                   93
        Abbreviations         Key               _                                         103
        U.S.    Department        of Labor      Fact    Sheets     Highlights.            105
                       INSPECTOR      GENERAL'   S MESSAGE



This   sixteenth      semiannual      report    of the Department       of
Labor's    Office     of Inspector      General     (OIG)   is issued     in
accordance      with    the provisions       of the Inspector       General    Act
of 1978     (P.L.    95-452).      Because    of two forthcoming
significant       events,     i.e.  the 75th     birthday     of the   Department
and the    fifth     anniversary      of the President's        Council    on
Integrity      and Efficiency,        the occasion      seems   appropriate     to
reflect    on the past       accomplishments        and consider     the future
course    of the OIG.

OIG audits   and investigations      have   had major    impact   on the
operations   of the Department     in numerous      instances.     For
examples,   the Federal   Employees'     Compensation      System  review
resulted   in the cancellation     of the contract       and a cost
avoidance      expenditure      of between     $63 and $90 million        for an
ineffective       system;    the Unemployment       Insurance     benefit
payment     study    brought    about   the  implementation       of a quality
control     initiative;      and our    investigative      efforts    resulted
in the controlled         retesting     of Black    Lung   claimants     eligible
for   oxygen    related     equipment.      In addition,      our Labor
Racketeering       targeting      in vulnerable     labor   intensive
industries      brought     forth   increasedconvictions          and decreased
criminal     influence      on the operations       of those     industries     and
their    labor    organizations.

I would    like    to note   that   the Department       also    is looking
ahead   to the next      century    and beyond;      anticipating       the
changes    in the makeup      of the workforce,         the types      of jobs
which   will    become   available     as our economy       moves    more    from
manufacturing       and mining     towards    services     industries,       and
improvements       in technology.       These    changes    will    require
adjustments      by the Department        if it is to service          different
clientele;      to address    the new skills        employees     will    need    to
compete    for the emerging        job opportunities;         and to keep
America    competitive.       Moreover,      we must    provide    these
services     in an era of budget         reductions.

The accomplishments         recorded     in this  report    indicate     the
success    of our    efforts    to keep pace     with   change.    The OIG
will   continue     to improve     its capability      to identify,      through
audits    and   investigative      activities,    ways    in which    the
Department      can do its work       "smarter"   and more     efficiently.
We have moved       to acquire     the technology      and, more




                                        -i-
importantly,     the human   expertise     needed   to keep   up with  this
changing    environment.    We look    forward    to continuing   the
progress    discussed    in this   report   and to supporting     the  DOL
agencies    in achieving    the  overall    goals   of the Department°

I want    to   thank  all  OIG employees    for their   efforts    in
producing      the accomplishments     reported  here.   Ours   is
important      work  and we all share     in the success    of our
efforts.




Inspector      General




                                   -ii-
                                    OVERVIEW



This   semiannual      report    covers     the activities       of the
Department      of Labor's      Office    of the Inspector        General     for
the period      April    i, 1986    through     September     30, 1986.      During
this   semiannual      period,     audits    and   investigations       continued
efforts    to improve      program     management      and operations       and to
detect    fraud    and abuse     within    the Department        of Labor.
Audit   initiatives       resulted     in numerous      economy     and
efficiency      findings     and   recommendations        regarding     Department
Agency    operations.        Meanwhile,      significant      investigative
cases   in FECA,      Unemployment       Insurance,     and CETA     contributed
to 289 successful         prosecutions       and   $10,339,480      from
recoveries,      restitutions,        settlements,      and cost
efficiencies.

Labor   Racketeering      continued     initiatives        to   strengthen
cooperation     with   other   federal     agencies       and   to upgrade
financial     investigative      capabilities.

OCCUPATIONAL       SAFETY   AND   HEALTH      ADMINISTRATION

Starting    in 1984    OSHA   began   experiencing       a variety     of
problems.      The number     of work-related        injuries,    illnesses
and deaths     began   to rise.      News   articles     began   to appear
which   chronicled     OSHA's    difficulties      in handling      inspections
and abatement      orders.     In addition,      an allegation       of bribery
was reported.        We initiated     a comprehensive        review    into two
regional    offices'    management      and operations.

During    the reporting     period    we provided    OSHA an interim
report    on its management      of petitions     for modification           of
abatement    dates.     OSHA's    response   was prompt,   positive          and
comprehensive.       (See page     2.)

We also have       developed    prototype     financial    statements    for
OSHA   and are     assessing    OSHA's    administration       by using  GAO's
Controls     and   Risk   Evaluation     (CARE)   methodology.       (See pages
23 and    30.)



EMPLOYMENT     STANDARDS     ADMINISTRATION

In April    1986,    the Department      terminated    the FECS Level     II
ADP  development      project.     The   settlement    terms   resulted   in
significant     cost    recoveries    and cost    efficiencies     for the
Department.       (See page     36 and 38.)




                                      -iii-
Investigations      initiated,     "Operation     Deep    Pockets,"      in
response    to the U.S.     Navy  Sea Systems       Command     concerns    over
the disparity      in FECA   charge-back      costs    between     two
locations.      Our investigations        resulted     in several
indictments     and continued     into   suspected      fraud    by medical
services    providers    in the Long Beach        area.     (See page    44°)


PENSION      AND    WELFARE       BENEFITS      ADMINISTRATION

We developed       a 5-year    audit    plan   for our     reviews    of PWBA's
activities     and began      a survey     of PWBA's     use of independent
public    accountant      (IPA)   audit    reports    for Employee
Retirement      Income   Security      Act   (ERISA)    enforcement.        We also
brought    attention     to legislative        and regulatory        issues,
specifically       the proposed      legislation      which    would    alter
drastically      the standards       for   reporting     fraudulent
activities     and other      irregularities       to client      management      and
to the Securities        and Exchange       Commission.        We believe      the
reporting     standards     should     be expanded      to include      those
audits    conducted     under    ERISA    requirements.         (See page     8.)


EMPLOYMENT         AND    TRAINING      ADMINISTRATION

In our last      report,     we discussed      our review     of the Treasury
Department's       management     of Federal      unemployment     tax
collection      and processing       as well     as how appropriate       its
charges    were    for   those  services.        Our review    disclosed     an
overcharge      of at least      $24.9    million    for Fiscal    Years
1984-1986.       IRS response      was quick      and positive.       IRS
changed    its method       of costing     for collections      and estimates
the total     reversal      for all    three   fiscal   years   will   exceed
$30 million.         (See page    i0o)

In our continuing         review   of the Federal     share   of
unemployment      compensation,       to date   we have   issued   27 reports
covering     approximately       $6.2 billion    of Federal    unemployment
benefits     and have     recommended    disallowance     of approximately
$172 million.         (See page    Iio)

In an investigation        of Unemployment      Insurance    for
Ex-Military     Service    Members    (UCX),  a 15-count     indictment   was
returned    charging    six   individuals    with   conspiring    to defraud
the State    of California      and the Federal      Government    of
$650,000°          (See    page      53.)

Although    the Comprehensive                Employment    and   Training    Act
 (CETA)  has ceased,    frauds              and abuses    from   past   program




                                              -iv-
operations       continue    to require   investigative            effort.     Four
significant        cases  concluding    in indictments            are  reported.
(See page       47.)

Based   upon    concerns     developed    during    monitoring     reviews,           ETA
requested     an investigation         and audit    of the Los Angeles,               CA
Indian    Centers,     Inc.    We questioned      $2.9 million      out of
$10.4   million     awarded     and identified      major   deficiencies           in
documentation,        inadequate     financial    management     controls          and
inappropriate       charges     for  reimbursement.        ETA terminated           the
grant.      (See page     12.)

With  passage    of the Tax Reform        Act of 1986,     the Targeted
Jobs  Tax   Credit   (TJTC)    program    is reauthorized       through
1988.    Major   problems    exist     in implementing     this    most recent
reauthorization.        During    this   reporting    period   we issued    a
final    audit   report     on TJTC    participant     eligibility
procedures      in place     prior    to December    1985.     However,   our
current     concerns    in implementing        the  reauthorization
override     the operational        recommendations       we made   in our
audit    report.      We will    work   with   ETA as it starts       up the
reauthorized       program.      (See page     13.)


VETERANS        EMPLOYMENT      TRAINING      SERVICE

We completed      a review    of Virginia's     Disabled    Veterans
Outreach    Program    (DROP)   which   was  the focus     of complaints
that   ineligible    personnel     filled   DVOP   positions.      We
determined     that  disabled    Vietnam    era veterans      had been
 improperly       laid   off,     demoted     or   transferred.      (See   page   15.)


 DEPARTMENTAL        MANAGEMENT

 In continuing      our attention     on Reform    '88, we completed
 reviews    on information     resources    management,     procurement,
 the Federal    telecommunications       system    (FTS),   and asset
 management.      (See page    19.)    In our assessment       of FTS, we
 identified    cost    savings  of more   than    $i million.      (See page
39.)

 In this    report    we showcase     our major     long-term     initiative    to
 evaluate     each  DOL program     agency's     financial     management    and
 the Department's       financial     management     as a whole.       Two
 interrelated      efforts   are featured:        financial     statement
 audits    and financial     management      systems    reviews.      During
 this   period    we studied    the feasibility        of preparing
 financial     statements    for   ETA and OSHA.        Concurrently,      we are




                                            -v-
using   GAO's   CARE   methodology      to review     and evaluate      ETA's
and OSHA's     financial     management     systems°      Our long-term       goal
is effective,      efficient     financial     management     systems     which
produce    reliable    financial     data   and program      statistics°
(See Chapter      2, "Strong     Financial     Management     is the
Foundation     for Effective,       Efficient     Program    Management",
page    22.)


LABOR    RACKETEERING

The Office     of Labor      Racketeering        (OLR)    continues     to
strengthen      its enforcement        program     with    internal     and
external     initiatives°        These    include      the signing      of a
Memorandum     of Understanding         with    the Federal       Bureau    of
Investigation        (FBI)   governing     matters      of concurrent
investigative       interest     between     OLR   and the FBIo         Internally,
a computerized        micrographic      record     and    retrieval     system   and
an automated       investigative       management       system    were   installed,
as were    microcomputers        to enhance       OLR's    financial
investigative       capability.

Indictments      increased     28 per   cent     to 114   in FY     1986     compared
to 89 in FY      1985.     The  conviction       rate  for OLR
investigations       increased     to   93 per  cent  in FY       1986      from    84
per  cent   in   the prior     year.      (See page  56°)

Statutory     law enforcement     authority     for OLR    special   agents
continues     to receive   warranted     attention     and support°      The
issue    continues    as an item   for study     under    the Department's
proposed     legislative   agenda.


Convictions     declined     to 56 in FY 1986      compared    to 67 in the
prior   year.     Although     the growing    complexity     of OLR cases
and the    related    increase    in judicial     processing    resulted  in
a decline      in the number    of actions    disposed         of by       the
courts,     OLR's  conviction    rate  increased     to       93 per       cent    in    FY
1986   from    84 per cent    in the prior   year.




                                        -V i-
                                  OFFICE       OF   AUDIT



During   this     reporting    period,  309          audits    of program
activities,       grants,   and contracts            were   issued.    Of   these:

     --     30    were  performed    by OIG auditors,
     --     54    by CPA auditors     under    OIG contract,
     --     87    by state   and local     government     auditors,
     --    130    by CPA firms    hired    by grantees,      and
     --       8   by other   Federal    audit   agencies.

The 309 audit       reports     issued    during    this   period    consisted     of
15 program      results    audits,     67 financial       and compliance
audits,    4 economy      and efficiency       audits,     18 financial      and
compliance/economy         and efficiency        audits,     1 preaward     audit,
2 post-award       audits,    i0 surveys,      3 fraud     control    projects,     2
research    and issue      identification        projects,     5 indirect      cost
audits,    60MB     Circular     A-123    internal     control    reviews,     and
176 audits      conducted     under    the provisions        of the Single
Audit   Act   or OMB Circular        A-102,    Attachment      Po    The
Department      of Labor     was the cognizant         agency   for 70 of the
Single   Audit     or Attachment       P audits°

The Office      of Audit     section     of this    semiannual     report    is
divided    into three      chapters°        Chapter    1 contains    information
on audit     activities      in the Department's         programs.      Chapter     2
showcases     our major      long-term      initiative,     evaluating      the
Department's       system    of financial       management     (page   22).
Audit   resolution      during     the period      is covered    in Chapter      3
 (page  36)°     Money    owed    the Department       is separately      reported
later   in this     report     followed     by the Appendix      which    contains
tables    on audit     activity      including     audit   reports   issued     and
resolved°



                      Chapter     1 --     Agency      Activities


OCCUPATIONAL       SAFETY   AND    HEALTH       ADMINISTRATION

The Occupational       Safety    and Health     Administration       (OSHA)   is
responsible      for administering       the Occupational        Safety   and
Health    Act   of 1970.     The Act was passed        to assure     safe and
healthful     working    conditions     and to preserve       our human
resources.       To accomplish      its mission     OSHA   promulgates
occupational      safety    and health     standards,    enforces     those
standards     by inspecting      places    of employment,      and provides




                                         -i-
grants    for  research,                 training,       and education.           In    Fiscal
Year   1986,   OSHA  had             a    staffing       level  of 2,200         and    a $208
million    budget.

Until        1984,     there   was        an   overall     decline       in   work-related
injuries,            illnesses,          and deaths.     In      1984  (the latest   year
for which            statistics          are available),         the numbers   in these
job-related             indicators          began to rise.

In 1985    and early    1986,   several   news   articles     chronicled
OSHA's   problems    regarding:       (I) handling    the inspections        of
and subsequent     abatement     orders   to two New      York   thermometer
companies,     and (2) an allegation       that    an OSHA    official
accepted    bribes   and did not follow       OSHA   procedures.

Special        Review

Concurrent            with  OSHA's     internal     investigation,    the Under
Secretary            of Labor    requested     OIG assistance.       The OIG
undertook            a thorough     review    of the management      and operations
in two    of         OSHA's   regional     offices°      Our objectives   are   to:

        --      determine     whether   OSHA  has adequate    management
                control    systems    to schedule   and carry    out the
                inspection     process   and enforce   abatement
                (elimination      or correction)    of identified     hazards;

     --         determine       whether   OSHA   has complied                  with  policy         and
                procedures       in achieving     abatements                  and managing
                long-term       abatement    cases;

     --         determine       whether          OSHA  has targeted            enforcement
                activities       without          prejudice;

     --         identify       problem    inspections                which    need     greater
                management        attention;     and

     --         assist   OIG's  Office             of Investigations              in    reviewing
                all allegations     of            improprieties    by          OSHA     regional
                officials.



Petitions        for      Modifications           of     Abatement

Even   though   our overall      review    is still    in progress,   we
issued    an interim    report    in September      1986  on OSHA's
procedures     for petitions      for modification       of abatement    (PMA)
dates   which,    in our   opinion,     were  inconsistent     and
contradictory°




                                                -2-
OSHA management      took prompt   action in drafting   and
implementing     revisions   to its PMA procedures.     These
revisions    address    all but one of our recommendations.                  OSHA
has promised      to     direct  attention     to   this   remaining
recommendation          in 6 months.

Discussions     of our work    on:     (I) developing    prototype
financial     statements   for OSHA,     and   (2) using  GAO's    Controls
and Risk    Evaluation    (CARE)   methodology     in assessing     OSHA's
administration      are discussed     on pages    23 and 30,
respectively.


MINE    SAFETY   AND     HEALTH   ADMINISTRATION

The Mine     Safety   and Health     Administration       (MSHA)   administers
the provisions       of the Mine     Safety    and Health     Act of 1977.
The program      is designed     to reduce     the number     of mine-related
accidents     and fatalities      and achieve      a safe and healthful
environment      for the nation's       miners.     Approximately      5,652
coal   and 11,127     metal/nonmetal       mining   operations     are under
MSHA's    jurisdiction.       For Fiscal      Year  1986,   MSHA had a
staffing     level   of 2,828    and a $145 million        budget.

During    this   reporting     period,    we completed      work    on MSHA's
 (i) Quality    Assurance      Program,     and   (2) Enforcement,
Assessment     and Collection        Procedures°       We also    completed     an
Organizational       Survey    of MSHA which       identified     areas
warranting     future    audit    work   and issued     draft    reports    on
MSHA's    (I) Management       of Official      Government     Vehicles,      (2)
Hotline    Complaint     Procedures,      and    (3) Internal     Management
Review    Process.



Quality     Assurance      Program

Our followup       review    to our December       1984   audit   on MSHA's
Approval     and Certification        Center     (ACC)   was made    to
determine     whether     MSHA had fully       implemented      a Quality
Assurance      (QA) program.       MSHA made      significant     strides    in
implementing       a QA program;      however,     additional     improvements
are still     needed.      Our  review    disclosed      the following:

       --    Excessive    time    elapsed   before     critical/major
             deficiencies      found   in two of      eight   products
             evaluated    were    resolved.




                                       -3-
      --     Few   followup    inspections    of deficient   equipment   are
             being   made   once   the deficiency    is brought   to the
             manufacturer's       attention.

     --      Post-approval      product     evaluation     files    disclosed
             discrepancies       such   as (i) overreporting         the number
             of different      products     evaluated     in Fiscal     Years
             1984   and 1985;      (2) inadequate      documentation
             reflecting     actions     taken   to correct     deficiencies
             disclosed     during    post-approval      evaluations;       and  (3)
             performing     post-approval       evaluations      almost
             exclusively      at the :mine operator's        warehouse      and
             not   in the mines.

     --      ACC's   authority     to conduct    post-approval
             examinations      of certain    products,    currently    implied
             by the agency's       authority    to grant    approvals,
             should   be stated     explicitly     in the Code     of Federal
             Regulations      (CFRS)o

As a result      of our    recommendations,       MSHA    agreed    to:     (I)
require    the ACC to submit         to Headquarters       a monthly      report
identifying      test   results    of equipment      showing     critical
deficiencies      that   may   present    a safety     problem;     (2)
formalize     the policies      and procedures       governing      the Imminent
Hazard    Review    Board;   and    (3) continue     monitoring      corrective
actions    of deficiencies        to ensure    that    they   are timely.

Although     MSHA   agreed   to have   the ACC   submit    a monthly
management      report   on "critical"    deficiencies       that may
present    a safety     problem,   we contend    that   the   report    should
not be restricted        to "critical"    but  also    include     "m_l_£"
deficiencies       that  present   safety  or health      hazards°

MSHA   revised   operating    procedures     to track    corrective
actions    at both   manufacturers'      factories/warehouses             and   mine
sites  for cases  involving    serious          safety    and health    defects
and implemented   changes    to ensure          that   corrective    actions
are adequately   documented.

Regarding     post-approval       evaluations,      MSHA believes       it is
following     generally     accepted     procedures     for quality
assurance     evaluations.        As a result,      MSHA   disagreed      with    our
conclusions      on overreporting..         We contend     that   the tracking
system    is misleading      on the ]number of different            products
evaluated     as compared      to the    universe    of those     approved      by
MSHA   andthe     number    of different      products     that   have
deficiencies      warranting      correction     by manufacturers°           MSHA
did agree     to evaluate      equipment     in the mines      when    deemed




                                      - 4-
necessary       and is considering            using        inspectors         for    quality
assurance       activities.



Enforcement,        Assessment       and     Collection           Procedures

Our followup     review   to our June     1982  audit    of MSHA's
enforcement,     assessment    and collection       procedures     determined
that   MSHA  had fully    implemented     four  of the six
recommendations      contained    in the prior      report°     MSHA   still
needs   to improve    collection     of overdue    mine   penalties     and
documenting     the scope    of mine   inspections.

MSHA   agreed    to strengthen   its debt  collection    practices   by
exploring     the use of the    Internal  Revenue   Service   to collect
assessed    penalties    via refund.

MSHA   disagreed     with    our recommendation       to institute     a
checklist     to document       the scope   of mine    inspections;
however,     they   agreed    to consider    using    a checklist     in
conjunction      with    the Inspection     Standard    Operating
Procedures      Manual.      In our  opinion,    using    a uniform
checklist     will    ensure    the continuity     of mine    inspections                        and
assure    adequate     attention    to miners'     safety   and health°


Organizational          Survey

Our organizational     survey           of MSHA  identified                additional
areas  where   we will  commit           audit  resources               during    the      next     5
years.    We plan  to:

     --        evaluate     the    effectiveness            of    MSHA's
               non-enforcement        accident         reduction           programs;

     --        evaluate   the operations              of    the    National         Mine   Safety
               and Health   Academy;

     --     determine     the feasibility       of combining    MSHA
            enforcement      functions    of coal   administration                         and
            metal/nonmetal       administration     into   a single
            enforcement      unit;

     --        review     MSHA's    state     grants        program;

     --     review  the mine    operators'                  practices    and         procedures
            of obtaining   and   submitting                  dust   samples          to MSHA
            for analysis;    and




                                            -5-
     --       review      the    operations         of   the    Denver    computer
              center.

During   our       survey,    we issued    draft   reports   on             MSHA's:       (i)
Management         of Government     Vehicles,     (2) Hotline               Complaint
Procedures,         and    (3) Internal    Management    Review              Process°



Management         of   Government       Vehicles

MSHA manages   and is accountable   for                    the    largest     fleet      (over
1,500)  of vehicles  in the Department.

We surveyed   MSHA's            management      of its official     government
vehicles   and found            that   MSHA    would  realize   substantial
savings      if:

     --       vehicle      management     regulations     were            followed   and        a
              program      to track    vehicle    procurement,               use and
              disposal      were   implemented;      and

     --       immediate         action    is   taken      to:     (i)    evaluate     current
              policies     on required      vehicle    use for enforcement
              purposes,      (2) release     underutilized      vehicles     in
              non-enforcement        units,    and   (3) change    utilization
              standards      from  500 miles      per month   to 1,000     miles
              per month      to comply    with   Department     of Labor     Manual
              Series     (DLMS)   and MSHA's      Management    Manual    Series
              (MMS)    standards.



Hotline      Complaint       Procedures

Our survey     of MSHA's    hotline     system  disclosed     that   only  coal
mine   sites   have   a hotline     to report   alleged    safety    and
health    violations.      There    is no similar    hotline     system   to
cover   safety    and health     violations    relating    to
metal/nonmetal       mine  sites.

We recommended      expansion   of the hotline                    for safety   and
health   violations     at coal mines    to also                  cover  similar
violations    for metal/nonmetal      mines°




                                           -6-
Effectiveness           of    MSHA"s        Internal      Management       Reviews

Our   survey       of MSHA's    system    for            conducting       internal
management         reviews   showed    that:

       --        Lack   of    planning     and centralized    control   has
                 limited      the   effectiveness     of MSHA's   internal
                 management       reviews.

       --        Past   internal   management               reviews    have      not been
                 targeted    to compliment               MSHA's    Internal       Control
                 Program.

We    concluded        that    MSHA     can    increase       the     effectiveness      of    its
internal   management             reviews    by designating              a central   point
to coordinate     all          agency    internal   reviews             and evaluations.

The    Assistant    Secretary    is in                 the process      of responding         to
the    recommendations      contained                  in the above      reports.


OFFICE      OF    LABOR-MANAGEMENT             STANDARDS

The Office     of Labor-Management        Standards      (OLMS),    enforces
the provisions      of laws    which   establish      certain    rights    for
union   members   in private      sector,    Federal,     and postal
unions.     These   rights    include    proper    handling     of union
funds,   safeguarding      union   assets,    provision      for reportil.
and disclosure      of certain     financial     transactions      and
administrative      practices     of labor    organizations       and
employees,     and imposition      of union     election     provisions.

OLMS   is the product       of a 1984     departmental    reorganization
which   its predecessor,         the Labor-Management       Services
Administration       (LMSA),     was divided     to more  accurately
reflect    legislated      responsibilities.         The Fiscal    Year  1986
budget   totaled     $22.6    million   with   authorized    staffing    of
441.



Ongoing      Activity

During   the current    semiannual    reporting                       period,     OIG began     a
survey   of OLMS'   revised   Compliance    Audit                      Program      (CAP).     The
objectives   of our survey      are to determine                         whether:

       --        the   revised        CAP    procedures       are     properly     applied;




                                               --7-"
       --    CAP work   and   results   are accurately     reported                          in
             OLMS'  management     information    systems;

       --    compliance     assistance              is    being    provided        to   the
             unions;    and

       --    CAP procedures     result  in identification     of valid,
             significant    violations   of the Labor-Management
             Reporting   and Disclosure    Act of 1959    (LMRDA) o


PENSION     AND   WELFARE      BENEFITS         ADMINISTRATION

The    Pension    and     Welfare     Benefits           Administration         (PWBA)
administers      the Department's        responsibilities        under     Title    I
of the Employee       Retirement      Income    Security     Act   (ERISA)     of
1974,   which   includes     regulatory,      enforcement,       research,
reporting,     and public      disclosure     activities°        Currently,
ERISA   covers    4°5 million      welfare    and 915,000       pension     plans
which   together     represent     150-200    million     participants        and
manage   assets     of over    $1o4 trillion°         For Fiscal      Year    1986,
PWBA's   budget     is $27.6    million    with    authorized      staffing      of
479°

During    this  reporting     period,    we (i) developed       a 5-year
audit   plan   for our    reviews    of PWBA    activities,      (2) began   a
survey    of PWBA's   use of independent         public    accountant    (IPA)
audit   reports   for   ERISA    enforcement,      and   (3) brought
attention     to legislative      and   regulatory     issues°


PWBA    5-Year    Audit     Plan

We formulated         a 5-year       audit      plan      which    will     devote      audit
resources   to:

       --    evaluate     the       use    of   IPA      audit    reports     in     ERISA
             enforcement;

       --    determine    the        amount    of        coordination     among
             PWBA/IRS/Pension            Benefit          Guaranty    Corporation;

       --    assess       PWBA's     ERISA      targeting         strategy;

       --    evaluate       PWBA's        management        information         system;

       --    identify       problems   related    to late              or slow
             processing        of exception    requests;               and




                                             -13-
      --      evaluate    the       imposition          of   penalties        for     prohibited
              transactions.



Use of Independent            Public   Accountant              (IPA)
Audit Reports   in         ERISA   Enforcement

During    this  reporting    period,     we started    the first
initiative     under   the 5-year     audit  plan -- PWBA's       use of IPA
audit   reports    in ERISA    enforcement°      ERISA    requires   plan
administrators       to obtain    an IPA audit    of plans     with  i00 or
more   participants.

Our   primary     objectives         in     reviewing        the   IPA   audit        function
are   to:

      --      identify   the extent   to              which  PWBA  uses          IPA    reports
              to enforce    ERISA rules               and regulations;

      --      determine     whether    IPA reports   contain                   readily
              understandable       disclosure   information                    and if      they
              enhance    PWBA's    enforcement   of ERISA;                    and

      --      determine       how    PWBA     could      use   IPA     data    more
              effectively       in     its    enforcement          efforts°



Legislative      and      Regulatory         Issues

ERISA   requires     an IPA opinion      on the financial         statements   of
pension    and welfare     benefit    plans   which    cover    i00 or more
participants°        IPA audit    reports    are issued      yearly°
Generally     accepted   auditing     standards      (GAAS)    of the American
Institute     of Certified     Public    Accountants      (AICPA),     as
presently     defined,   require     the independent        auditor    who may
be aware    of fraudulent      activity     to inform     only    the client   of
that   activity    and to consider       resigning     from    the audit
engagement°

HoRo   5439,    the    "Financial      Fraud   Detection     and Disclosure       Act
of 1986",      introduced       in August     1986   by Representative        Ron
Wyden,    with    18 other      House   members     as co-sponsors,      would
have   significantly         affected     the procedures      employed     by
external     auditors      examining      Securities     and Exchange
Commission       (SEC)    regulated     companies,     and would     alter
drastically       the standards        for reporting      fraudulent
activities      and other       irregularities       to client    management      and
SECo    The bill would          require    auditors    of publicly      held
companies      regulated      by the SEC to develop          and implement




                                             -9-
procedures     that would     "reasonably     ensure"    the detection     of
"material"     illegal    or irregular     activity     by officers,
directors,     employees,     agents   or others     associated    with  the
audited    entity    and to report     findings     to an appropriate
level   within    the organization°        Should    management    not take
appropriate     action    within   3 months,     the auditor    would   be
required    to report     to the appropriate        enforcement    and
regulatory     authorities°

The proposed      legislation    applies     only   to those     corporations
and financial      institutions     which    are   regulated     by the SECo
OIG believes      that   the reporting     standards      should    be expanded
to include     those   audits   conducted     under    ERISA   requirements°
Such  expanded     standards    could   make    the   ERISA-mandated      audits
much more    useful    as a tool    in PWBA's      enforcement      of ERISAo



EMPLOYMENT       AND   TRAINING       ADMINISTRATION

The   Employment      and Training       Administration         (ETA)   administers
programs     to enhance       employment     opportunities        and provide
temporary      benefits     to the unemployed          through    employment      and
training     programs      authorized     by the Job Training           Partnership
Act   (JTPA),     the WIN program        authorized       by the Social
Security     Act,    the Unemployment         Insurance      (UI) program,       the
Trade    Adjustment      Assistance      Act and the Employment            Service
authorized      by the Wagner-Peyser           Act°     In Fiscal     Year    1986,
authorized      staffing     was   1,771    and ETA's      budget    was   $29°3
billion°       Of that amount,        $25°4    billion     was   for the UI Trust
Fund,    $3°3 billion       for JTPA,      $312 million       for Older     Workers,
 $210 million      for WIN,      $107 million       for Trade     Readjustment
Allowances       (TRA)   and   $6°9 million       for the Targeted         Jobs   Tax
Credit     (TJTC)    programs.



                       Unemployment          Insurance   Program



Federal      Unemployment     Tax      Act

The Federal     Unemployment      Tax Act     (FUTA)    levies    a Federal      tax
against    employers     to fund   state    and Federal       administration
of the unemployment        insurance     program°       Responsibility        for
the management       of the FUTA     tax system      is shared     among    the
Department     of Labor    (DOL),    Internal     Revenue     Service     (IRS),
and Financial      Management     Service     (FMS)   of the Department          of
the Treasury°        DOL administers       programs     funded    by the FUTA
taxes   through    the Employment       and Training       Administration°
IRS collects      FUTA  taxes   and processes        the annual      FUTA   tax




                                         -I0-
returns    (Form 940)   and FMS    is responsible     for the
administration,     maintenance,      and investment     of the
Unemployment    Trust   Fund   (UTF),    the depository    for FUTA                 taxes
paid°

Title   IX of the Social    Security   Act   (SSA),   directs    the
Secretary    of the Treasury    to withdraw     funds  from   the UTF                 to
support   the Treasury   Department's     responsibilities       under                the
various   unemployment   compensation     laws.

In our   last   semiannual,     we discussed   our review     of the
Treasury    Department's     management    of Federal   unemployment      tax
collection     and processing      and the appropriateness       of charges
to the UTF for these        services°     Our review   disclosed     that
IRS's   accounting     and billing    systems             for FUTA    activities     do
not assure     fair   and equitable    charges             against    the UTF    for
services    rendered°     These   deficiencies               resulted    in $24.9
million    overcharged        to    the   UTF    for    Fiscal   Years   1984-86o

The   response     we received     from   IRS          was extremely    positive°
IRS changed       its method     of costing            for the collections
process    and will      provide   supporting             documentation    for future
billings     upon    request.

The   overcharges      identified     in our review   will   be adjusted
for Fiscal      Years    1984  and 1985   as of October     31, 1986,    and
those    related    to Fiscal     Year 1986  will   be adjusted    at
year-endo       Based    upon  its own methodology,      IRS estimates
that   the   total    reversal    for all three   fiscal   years   will
exceed     $30 million°



    Federal    Share     Of   The    Unemployment         Compensation     Program

We are continuing        our review      of the Federal       share    of the
unemployment     compensation        (UC) program.       The Federal       share
of the UC program        comprises     benefits     paid   to Federal      (UCFE)
and ex-military        (UCX) personnel,       the Federal       portion    of the
Extended    Benefits      (EB) program,      and benefits      originating
from   the federally       funded   Federal     Supplemental       Compensation
(FSC)   and CETA     Public    Service    Employment      (PSE)    programs.

Our objectives    are to determine                 the validity    and accuracy        of
federally   supported    unemployment               benefit   charges  reported        by
the states   to the Department        of           Labor   for the period
October   i, 1981   through   September               30, 1984o

Federal    benefits   paid   by 42         State     Employment     Security
Agencies    are being    reviewed.            To    date,   we have    issued




                                          -ii-
27 reports      (23    final  and 4 draft)  and           have  audited
approximately         $6°2 billion  of Federal            unemployment    benefits°

Of the    $172 million      we have     recommended      for disallowance,
$49°2   million     relates    to final      reports    and   $122o8   million
relates    to draft     reports.      Of the amount        recommended      for
disallowance,       $167 million      relates     to the Extended        Benefits
program,     and of that,      $46°5    million     is in final      reports    and
$120o5    million    is in draft      reports°       To date,     the Employment
and Training      Administration        has   issued    13 Findings      and
Determinations       disallowing       $27.9   million°      Seven    states    have
already    refunded     $9ol million       of this    amount°      Four   states
have   appealed    ETA's    final    determinations        to the
Administrative       Law Judge°

We also    have    identified     approximately        $19o7   million    in
Federal    Supplemental       Compensation       (FSC)   program
overpayments°         However,    these    overpayments      represent      less
than   1 percent      of the FSC payments         audited°      Given   the
constraints      imposed     by the FSC law and amendments             thereto,
the states      should    be commended      for very     capably
administering       this   complicated      Federal     benefit    program.



                         Job   Training     Partnership      Act



Indian    and   Native     American       Programs

Indian   and Native    American     programs     are federally
administered    programs     authorized     by the Job Training
Partnership    Act   (JTPA) o    The purpose      of the program      is to
provide    job training    to economically        disadvantaged,
unemployed,    or underemployed        Indian    and Native    Americans°
Fiscal   Year  1986   budget    authority     was   $59°6  million°

Although    the enactment       of the Single        Audit   Act   has reduced
our emphasis      upon   traditional      financial      and compliance
audits,    we continue      to perform     these     reviews,     when
requested,     in support     of investigations          or by request      of
program    administrators°        Our   recent     audit    of the Los
Angeles_    CA Indian     Centers_     InCo,    exemplifies       such a
cooperative      effort   by the Office       of Audit      (OA),    the Office
of Investigations        (OI) and ETA°        ]ETA requested       an
investigation      of Indian     Centers,      InCo,    on the basis     of
concerns    developed     during    their    monitoring      reviews.

The audit   questioned          or recommended    for       disallowance    $2°9
million   of the   $10o4        million   in Federal        and non-Federal




                                          -12-
funds  awarded    to Indian         Centers,    Inc.,   for    the period      April
1982  through    June  1985.         Major   deficiencies       identified      by
the audit    included:

     --     Documentation          supporting      disbursements      was    not
            systematically          retained.

     --     Inadequate    financial        management        controls    resulted
            in overreporting      of      costs   and     double    recording    of
            expenses.

     --     Rental    costs       incurred      under  a related   party    lease
            were   claimed        in excess      of amounts   allowed    under
            Federal      regulations.

     --     Consultant     agreements     were   either  not available              or
            were   insufficient      to support     that the services
            provided    were    relevant,    reasonable    and necessary
            for the proper       administration      of the program°

As a result    of the joint,       cooperative      efforts    between   OIG
and ETA,    the grant     to Indian    Centers,     Inc.,   has been
terminated.      Additional     funds   have   been    provided    to another
grantee    in the   State   to ensure     continued     delivery     of program
services    to participants.


                          Uo So    Employment      Service



Targeted    Jobs   Tax    Credit     Program

With   passage    of the Tax Reform      Act   of 1986,   the Targeted
Jobs Tax Credit       (TJTC)   Program    is reauthorized     through
December    31, 1988.      In an effort     to stimulate     economic
growth    or reduce    unemployment     through    tax incentives,
private    employers    can claim     a Federal    tax credit    for hiring
qualified     members   of certain     target   groups.

Federal    responsibility      for the program       is shared.       Treasury,
through    the   Internal   Revenue    Service,     is the source      of the
TJTC   tax rulings     and policy.      ETA is responsible         for general
program    management,     oversight    and operation       guidelines     while
the SESAs     are responsible      for promotion       of the program,
completion     of participant      eligibility      determinations,
issuance    of employer     certifications       and reporting      of
operating     results.     SESAs   may   establish     agreements     with
other   public    agencies    to recruit     participants      and conduct
eligibility      reviews.




                                        -13-
The Fiscal     Year    1987  Continuing   Appropriations             (P.L.    99-500)
provides    that    SESAs   may use funds    made  available            under
Wagner-Peyser       to carry    out TJTC  responsibilities.

Amendments      to program    provisions     and the   retroactive
effective      date   of January    i, 1986,    will  likely   create
significant       problems   and uncertainties       in restarting           the
program.

For the employer        to qualify      for a tax credit,       amendments
require    that   TJTC    participants       remain   employed   at least    90
days    (14 days   for    summer   youth)     or complete     at least   120
hours    (20 hours     for summer      youth)    of service.     Enforcement
of these    amendments,       whether     a responsibility      of IRS or ETA,
has not been      designated      in the     reauthorization.

The   retroactive      provisions      contained     in the amendments         apply
to individuals        who began     work   for   the employer      after
December     31,   1985.     Prior   to this     reauthorization,        TJTC   had
expired     on December      31, 1985,     and SESA's     were    directed     not
to certify      participants       as eligible     for the tax credit          after
this   date.     In response,       some   SESA's    ceased    certification
while    others,    anticipating       extension     of the program,
continued     operations.        Consequently,       some   employers     will    be
allowed     a tax credit      based    on an accepted       application,       while
other    employers,      who had hired      employees     who would      have   been
certifiable      but now cannot        be located     or induced      to apply,
will   not   receive     a tax credit.

During    this   period,    we      issued    a final    audit    report    on TJTC
participant      eligibility         procedures      in place     prior   to the
program's     December    31,       1985,    expiration.       However,     current
concerns     in implementing           the   reauthorization       override     our
recommendations       and we        will   work   with   ETA on our      audit
concerns      as   they   apply     to   the   new   program.


VETERANS   u E_PLOYHENT           TRAINING     SERVICE


The Veterans'      Employment     and Training      Service     (VETS)
administers     two primary      employment     and training      programs    for
Veterans:      the Disabled      Veterans    Outreach     Program/Local
Veterans    Employment     Representatives        (DVOP/LVER)     and the Job
Training    Partnership      Act   (JTPA)   Title   IV-C program.        The
DVOP/LVER    program     is primarily     implemented      by the funding       of
DVOP   and LVER    positions     in the   State    Employment     Security
Agencies    (SESAs).      Title    IV-C is implemented        through    grants
to states    and local     governmental      entities.      For FY 1986,      the




                                          -i 4-
DVOP   program   is funded  for  $124 million,              and   the   Title    IV-C
program    is funded   at $8.5 million.    The             VETS   has   approved
staffing    of 279.



Disabled     Veterans     Outreach      Program

The Assistant     Secretary    of Veterans'     Employment      and Training
received   complaints     that  the Virginia     Disabled     Veterans
Outreach   Program    (DVOP)   had filled    positions     with    ineligible
personnel.

We determined        that   the grantee        either    laid   off,    demoted    or
transferred       13 disabled       Vietnam     era Veterans        (DVEVs)    from
DVOP   positions       resulting      in 13 lower       preference      veteran
employees      being    protected      from    adverse     reduction-in-force
actions.       Because     the Act     requires      preference      to DVEVs,     when
they   are available,         the action       of the grantee        was to
displace     eligible      personnel      with    ineligible      personnel.       We
recommended       that    $81,936,     the costs      associated      with   the
ineligible      individuals,        be disallowed.          Six persons
ineligible      at the time       of our     review     continued     to occupy
DVOP   positions.        We recommended         that    these   positions      be
filled    with    preferred      DVEVs    as soon as practical.

We also    determined     that   a delay    in filling      the required
number   of DVOP     postions    during    Fiscal    Year   1982   resulted     in
the grantee     not expending       $234,064    of the funds       appropriated
for the program.         The grantee     never    identified      the
unexpended     funds    as being    excess    or returned      the unexpended
funds   to the    Department°       We recommended       disallowance      of the
excess   funds°



DEPARTMENTAL       MANAGEMENT

Departmental      management    refers    to      those   activities     and
functions    of the Department       which        formalize    and implement
policies,    procedures,     systems,     and      standards     to ensure
efficient    and effective      operation         of administrative       and
managerial     programs.     The Assistant           Secretary     for
Administration       and Management     has       oversight     responsibility.

In continuing      our   review   of Reform     '88 issues,     we completed
reviews    on:    (I) information      resources     management,      (2)
procurement,      (3) Federal     telecommunications        system,    (4)
financial     management     system,   and   (5) asset    management.




                                       -15-
                     Information       Resources       Management



Information       Resources      Management        6_ervie_

Our ongoing     initiatives     in working     with  departmental
management    to improve     information     resources    management            (IRM)
concentrated     in three    major   areas   and continued      the
development     of a strong     foundation     for future    activities             in
the   IRM area.     These   projects    included:

      --      providing       assistance     to the Directorate        of
              Information       Resources     Management    (DIRM)     for   policy
              development        on planning     and acquisition       of
              information        resources;

     --       strengthening      the foundation      for future     IRM audit
              initiatives      by (i) developing      audit    programs    for
              monitoring     systems    development     activities     and
              reviewing     acquisition     actions   for ADP hardware        and
              software,     and   (2) developing     a model    approach    for
              ranking    the importance      of automated      information
              systems    (AIS)   in terms    of high    cost   or high    risk;
              and


     --       identifying     improvements          needed    in acquiring    and
              managing    commercial     ADP       support    services°


Acquiring      and Managing
Commercial      ADP Support        Services

Our analysis       of financial       and compliance       audit    reports
completed     on 12 OASAM       contracts     has raised      concerns
regarding     how the Department          acquires    and manages       ADP
support    services°       Types    of problems      identified      in the
reports    included:        (I) contractor       personnel     who   did not meet
contract     qualifications        requirements,      and    (2) costs     claimed
which   were    not   supported     or were    in excess      of task order       or
contract     budgets.      A total     of $17o6    million     was audited,
resulting     in $1o3 million         in audit    exceptions°

Because    commercial     ADP   services    represent     48 percent    of      the
Department's       $110 million     information     technology     budget       for
Fiscal    Year   1987,   we have    initiated    a review    of the
Department's      activities     for contracting       for ADP    support
services°      Our review     will   be directed      toward   evaluating
management     decisions     for acquiring      and managing      ADP
resources     through    contracts,     determining      the causes    for      the




                                        -1,5-
problems      highlighted    by the audit    reports   on the            12
contracts,       and identifying   potential     remedies°


                                       Procurement



Procurement       Development         Plan

In response   to OIG          and GAO audit          reports,    the Department         has
outlined   a long-term           procurement         plan  to   be implemented         over
the next   3 years°

The   three  basic   goals   of the procurement         program    are to:
 (i) increase    the quality     of the procurements         conducted     by
the Department's      operating     procurement      offices;     (2) increase
the efficiency      of the procurement        process    as used by our
operating    procurement     offices;     and   (3) improve     the quality
of the oversight      provided    by the Department's          Procurement
Executive    to the procurement        function.

In order    to achieve     the above      goals,    the Department
identified     specific    initiatives       emphasizing     procurement
staff   development;      DOL procurement        structure;      procurement
automation;     procurement       competitive     opportunities;       program
and operating      office    reviews;     policy    development;      and
procurement     support     (cost    issues).

Accomplishing       these      will    greatly    enhance   the     procurement
function    and    ensure      that    procurement     reforms      are   efficient
and effective°



Procurement       Executive      Oversight

We issued      a draft    report  on the         Procurement      Executive's
compliance      with   Executive    Order        12352   which    requires
effective      and efficient     spending         of public      funds   through
fundamental       reforms   in Government           procurement.

In compliance        with  EoO.       12352,   we noted    that  a number         of    the
Procurement       Executive's         responsibilities      were  achieved°             The
Procurement       Executive's         major   accomplishments     were:

     --       prescribing    and       publishing       policies,     regulations
              and procedures;




                                          -17-
     --       allocating     staff    resources   to monitor        those
              agencies    which    made   the largest   total       dollar
              procurements;

     --       reviewing   and approving      procurement        requests     prior
              to procurement     awards   as Chairman         of the
              Procurement    Review   Board;

     --       implementing     and   refining    the    Department's       new
              Automated    Procurement      Payment     System   for    small
              purchases;    and

     --       planning     reviews    on   cost and price      analysis,
              indirect     cost   rates    and  acquisition     planning
              systems°

We identified     three   critical     responsibilities      which   the
Procurement    Executive     needs   to strengthen:        (I) prescribing
and publishing     policies,     procedures     and regulations,       (2)
monitoring    procurement     systems,     and   (3) certifying    the DOL
procurement    system°


Procurement       Staff   Qualifications

In our    last   semiannual,       we reported     on our evaluation      of the
training     and education        of contracting     and grant    officers    to
determine     whether     they    meet  the qualifications      for their
positions     based    upon    the Department's      criteria°      We also
determined      whether     contract    specialists     are qualified     for
contracting      and grant      officer    positions    based  upon   the
established      criteria.

In responding        to our recommendations,          the Department
initiated   the      following  corrective        actions:

     --       nearly    completed     the Department's       Career
              Development      Program    which   will   cover    all
              procurement      positions     through    journey     level,
              identify     training    standards     for each     grade    level,
              define    entry   programs;,    and include      work    force
              analysis;

     --       meeting    frequently     with  the    Department's      key
              procurement     staff    to discuss     procurement      issues       and
              staff   development;      and




                                       -18-
      --        developed     a long-term              procurement    plan which
                includes     an objective              on procurement     staff
                development.



                        Federal        Telecommunications                 System

In our   last   semiannual,    we reported    on the results      of our
participation      in a government-wide      project    sponsored    by the
President's     Council    on Integrity   and Efficiency       on the
Federal    Telecommunications      System   (FTS)   utilization    within
the Department.

In   responding       to    our report,    the Department     has                        implemented
or   initiated       the    following   corrective   actions:

      --        Centralized            telecommunication                management         for       all
                agencies.

      --        Revised    departmental    policies  on telecommunications
                and plans     for issuance    of an all  employee
                memorandum     on official    use of telephones.

      --        Revised    procedures     which    now require    purchasing    of
                all telephone      instruments;       require  prior   approval
                for leasing     telephones      and traded    in all surplus
                telephones.

      --        Continued         to    monitor       the    number       of     lines     and
                instruments            to   ensure     agencies'          compliance.

      --        Required   agencies    to report                   to    OASAM     on     the    use       of
                FTS utilization     reports°

See Chapter        3,     Audit        Resolution,          page    38    for     monetary
details°



                                   Financial          Management

We have    undertaken     a major    project                  to evaluate    the
Department's      financial    management°                     This  initiative                 is
presented     in Chapter    2.


Review     of    I099's     in     DOL

Federal     Departments            and Federal          program  participants                    are
required     to report            various  types         of nonwage   payments                   to the




                                               -19-
IRS using    Form    1099,           as prescribed               in    the     Treasury           Fiscal
Requirements      Manual,            Section   4055°

The   President's      Council     on Integrity      and Efficiency
undertook     a review     of the     IRS'   information      return    filing
requirements       for nonwage      payments     by various      Federal
agencies°       In conjunction       with    this   government-wide        project,
we reviewed      the DOL's     compliance      with    these    requirements°
Our review     disclosed      that   five   DOL   agencies      were   not fully
complying     with    the  IRS information        return     filing
requirements       as follows:

      --       Form  i099's          were   not issued                as    required         for 13 of
               31 purchase           orders    sampled,               or    $91,089         of $230,165o

      --       Form   i099's         were  not issued   for 32 of 37                             manual
               contracts,           or $i0,396r895    of $10,477,814o

      --       Form   1099G's    were  not issued    as required      for
               discharge     of indebtedness°       Write-offs     totaled
               $6,469,168     of which    a minimum    of $1o5 million       in
               write-offs     was not   reported    on Form    1099G's    as
               required°

The Assistant           Secretary        is     currently             responding            to    our
recommendations°



                                      Asset        Management

We performed           limited       scope   reviews   of the internal    controls
over  travel          resources       within    the Bureau   of Labor  Statistics
 (BLS)   in the Kansas       City  and Chicago   regions°    We also
performed     similar     reviews   in the Office    of Labor-Management
Services     (OLMS)    and in the Occupational       Safety  and Health
Administration        (OSHA)    in the Chicago  region°

Our   review     found       that     BLS'      internal          controls           over        travel
resources   were          generally       adequate°               However,           our review
disclosed   four          instances       of internal              control           weaknesses°
The weaknesses            resulted       in:


      --       BLS paying           incorrect          charges        for      the    use        of   GSA
               vehicles;

      --       lack     of   documentation              to    account         for     all        funds
               expended       during         the    BLS      Centennial             Anniversary;

      --       inconsistencies            in       processing              travel     documents;            and




                                                -20-
     --     inconsistencies        in justifying       the    use    of
            non-contract       airline   carriers.

Similarly,    OLMS    established     and maintained       a system     of
internal   controls      designed    to prevent     the misuse      of travel
resources.      However,     our review     disclosed     two areas     in which
internal   control     weaknesses     existed°      These    resulted    in:
(i) excess    travel     advances    held   by 5 of the 19 employees
reviewed;   and    (2) internal      procedures     not consistently
followed   in processing        reimbursement      claims°      Similar
problems   were    noted    in our OSHA     review.

Management   agreed   to      take   corrective      action    and    eliminate
the weaknesses    noted.




                                      -21-
        ¢_A_ER     2 0° S_RONG FXNANCXAL                                _%_AGE_Y             XS _E
    FOU_DAYION     FOR EF_ECTIVE_  E_ICI_                                   PROGRA_          _AGE_NT


We have undertaken     a major long-term     initiative  to evaluate
each program    agency's  financial   management    and the
Department    of Labor's  financial   management    as a whole°   This
project   features   two interrelated    efforts:

                    Xo         Financial                 Statement            Audits

                   ZIo         Financial                 _anagement                Systems    Reviews

Our undertaking     complements    other efforts   throughout   the
Government   instituted     by Congress,   the Office   of Management
and Budget,    Treasury    and the General   Accounting   Office°    The
following   timeline    presents   some of the major initiatives:



                                  _3_JCR FEDERAL _qNANCIAL
                         _EKD4T        A_3 REPORTING _ITIA/IVES



            1975    Tr_sary  _gin_   issuing unaudited U. S_ Cbneolidated
                    Financial Statement s

            1978    Lns_ctor      Ge_ral     Act

            1982    Fc_deral _gers'          Financ:al    Integrz_    A.___

            1983    (l_5._rcu!ar     A-!f3 (Rsvi_d        198_

            1984    C_   Circular    A-127

            1984    C4_3 la_U_s revised Federal GAAP             (General!y
                    A_oepted Aocountlng Princ/ples)

            1984    Single   Audit   Act

            1985    G_3pure
                          iahes
                              __C_mnmmm_
            1986    C_D issums F_o_aral G<_rnmesc           R_nor_inQ    Sr.udv

            1986    Treasury issue8 F_ral   agencies' financ/al reporting
                    requirements that r_flec_ P_ral   GAAP revzsions

            1986    C__ iSs_s      audited financial       s_at_men_s    for GSA

            1986    CI_ issues Sv.a_rdlz_d          C_m/erDmentwid_ General        Led_r

            1986    Congress conslc_r_        statu_orily     mandated audits of
                    financial sta_s             fo_ _ral        _ncles   £_    Bill)

            1986    SecretarJ' of TT_sury,    n_rector of CE_B, and
                    C_mptroller C,e.reralimstm, joir_ m_orandum           to rental'
                    ammnitme_   to impr_,e   P_d_ral  fir_al         systems   and
                    hi_li_t    Trsasury'_  r_a finan_al      reporting
                    r_ ui remen_s

            !986    Director _f C_ and the (_'_ir   of Preslderz's Council
                    on _anagsm_    Im_r_men_    lestmd memorand_ to _ral
                    _ncies    to r*u__gln   upgrading financial ma?ag_ent
                    and ao_D_mti_   systems as a part of Fiscal Year 1988
                    _nc_,   budget r_ie_




                                                   -22-
In addition      to the congressional          and central     agency
.initiatives,     Secretary     Brock's     management    plan    includes    a
goal to enhance       the effectiveness         of financial     management
within    DOLo    The Secretary       emphasized     the use of
intradepartmental        coordination       to achieve    his goals.       OIG's
financial     management     project     provides    a basis    for such
coordination.


Working    with    management,      OIG's     projects     complement      DOL's
current    initiatives      to comply       with    Treasury     reporting
requirements       for Fiscal      Year    1986    and to modernize        DOL's
integrated      accounting      system.       Similarly,      the study     and
evaluation      of internal      controls       and systems      made   in
conjunction      with   financial       audits     complement     DOL's    Federal
Managers'     Financial      Integrity      Act    (FMFIA)    implementation
reviews    under    OMB Circulars        A-123     and A-127.



           I.      FINANCIAL         STATEMENTS       AND REPORTS  ARE BEING
                   DEVELOPED         AND AUDITED       FOR DOL AGENCIES.



Because    financial   statements      have   not been    prepared
previously     for individual     agencies     within    DOL,   we studied
the feasibility      of preparing      financial     statements    for ETA
and OSHA.      Our objectives     were    to:

      Ao        identify      Federal      financial          reporting     requirements;

      B.        design    prototype    financial              statements       in accordance
                with   Federal    GAAP   (generally              accepted      accounting
                principles);

      C.        design  prototype     management               reports  which   supplement
                Federal  GAAP   statements      so            as to meet   users'   needs
                for financial     information;

      D.        determine         if it is     feasible     to prepare          the prototype
                financial         statements      and   reports   from         existing  data;

      E.        determine         the steps   needed    to        assure    the    financial
                statements         are reliable;     and

      F.        assess      the    benefits     to    users     of   audited      financial
                statements         and   reports.

ETA administers     programs               related   to employment             services,
unemployment    insurance,                work  experience,    and          job training,




                                               -23-
with  a staff   of      1,771.      The     Fiscal        Year    1986   budget     was
$29.3  billion.

OSHA   administers      the Occupational       Safety    and Health   Act of
1970.     OSHA's    statutory    responsibilities        are to (i)
establish     safety    and health    standards,      (2) oversee    Federal
and state     enforcement     programs,     and   (3) provide    educational
and technical      training.      These   responsibilities       are carried
out with     a staff    of 2,200°     The   Fiscal    Year  1986  budget    was
$208 million.

Ao   GAO and Treasury     now         require    agency           financial    statements
and   reports  in accordance           with   Federal            generally    accepted
accounting    principles°

Both   GAO's   Federal    GAAP   and the Treasury's        financial
reporting     requirements      require    four  summary-level       financial
statements     prepared    for Federal      agencies    on a cost     basis.
In addition      to these    requirements,      other   Federal    initiatives
have   emphasized     the need     for,  and value    of,   improved
financial     reporting.

B°   To enable   DOL to comply    with               the new       requirements        and
standards_   our  studies  presented                 prototype        financial
statements   for  ETA and OSHAo


Because    Federal    GAAP   does    not specify     reporting     formats,     we
designed    prototypes     for the      four  required     statements°       The
prototypes     implement     full    accrual,    cost-based     accounting,
and are compatible        with    Treasury's     reporting     requirements°
The prototype      statements      present    easily    understandable
information     in a concise       format.     Notes    to the    financial
statements      and    related     management         reports       present       detailed
information.

The   significant       features     of    each      of    the    four   statements       are
presented     below.

Statement      of   Financial      Position

The proposed     Statement    of Financial      Position     provides     for
the recognition      of all assets,      liabilities      and components       of
equity   on a full    accrual    basis.     Information      is presented
concisely,    with   more  detailed     information      presented     in the
Notes   to the   Financial    Statements     or supplemental        management
reports.     As required     by Federal     GAAP,   a 2-year     comparative
presentation     is provided     in the prototype        statement.




                                          -24-
Statement     of     Qperations

The proposed    prototype     concisely   presents     the financing
sources,   operating    expenses     and net results      of operations
for  the fiscal    year   under   the accrual    basis    of accounting.
Expenses   are  presented     primarily   by program,      which   relates
to the Government-wide        functions   identified      in the Federal
budget.      Expenses     by office,    object   class,   and type  also
would   be presented       in the statements       (or in the Notes    or
supplemental       management    reports).      This  presentation   would
facilitate      incorporation      into  consolidated     financial
statements      of the U.S.     Government°

Statement     of     Chanqes      in   Financial       Position

The Statement       of Changes      in Financial       Position    explains     the
change   in "Funds      with   Treasury"      during    the fiscal     year.
Federal    GAAP    requires    that   this    statement      be prepared     using
the change      in cash    approach    and that      significant      sources    and
uses   of funds     are not netted       in the     statement.       As required
by Federal      GAAP,   the proposed       prototype      begins   with   the
results    of operations       and adds     back   non-cash      charges    (e.g.,
depreciation,       bad debt    expense,      etc.)°

Statement     of     Reconciliation         to     Budg_et__Reports

The   Statement      of Reconciliation        to Budget     Reports     is
required     by Federal      GAAP.     This   statement     ensures    that    the
information      presented      in the    financial     statements     is
consistent      with    the  information      presented     in the budget
reports°      The basic      purpose    of the    statement     is to reconcile
the financial        statement     information      to that    reported     to
Treasury    by the agency        on its Year-End        Closing    Statement
 (SF-2108).

In summary,        our    prototype       financial      statements       for   ETA   and
OSHA will :

     --     comply       with   Federal     GAAP;

     --     complement    and be          compatible      with     Treasury     reporting
            requirements;    and

     --     facilitate   incorporating      agency               statements     into
            consolidated    statements    for the                Department     of Labor
            and for the Federal      Government.




                                           -25-
C°      To     meet   usezs _   needs    for   financial        info_tion           which
supplements     Federal    GAAP          statementsa        our studies        of    ETA    and
OSHA  presented     prototype            management        [eportSo

GAO's   report,    Managinq    the_C:ost  of Government,       emphasizes
that,   in addition     to summary-level      financial     statements,
effective    management     reporting    is necessary     to meet     the
needs   of the diverse      users   of Federal    financial
information.        The GAO     report    prescribes      the management
reporting     dimensions      for two major        control     functions:       cost
control    and fund     control.       Cost   control     is needed      to
evaluate     the relationships         between     costs    and benefits       of
Federal    activities,       which   can be along        organizational,
program    or project      dimensions.        Fund    control     refers    to
managing     congressionally        appropriated       funds    to ensure
compliance     with    legal    requirements.

These        reporting      dimensions     are     summarized      in    the   following
table:




                          MANAGEMENT     REPORTING       DIMENSIONS

     Control      Function                             Reporting        Dimension

      Cost      control                        Organizational       reporting
                                               Program    reporting
                                               Project    reporting

      Fund      control                        Appropriation          reporting




Prototype     management     reports    were   developed    for
consideration       by ETA and OSHA       for  these   four   reporting
dimensions.       The proposed      management     reports   are presented
primarily     on an accrual      basis    of accounting     to show     full
cost.     Where   appropriate,      the   same data    is presented      in
different     configurations      to give management        the data     it
needs.

Orsanizational_RReporting

These   reports    summarize     along    various   organizational       lines
the actual     accrual    basis   costs    of the agency      component.
Specifically,      they   identify     and assign     controllable     costs,
thus,   assigning     management     authority     and responsibility        for
costs   and their     control.      If the    reports    are provided




                                           -2 6-
regularly     and timely,     managers        at various    levels    of the
agency    can better     monitor    and      control   the consumption      of
resources.       Further,    properly        designed   reports    allow  lower
organization      level   reports    to      be combined    into   the next
higher    level.

Program     ReDorti    n_

These    reports     summarize     the actual      accrual    basis    costs    for
each   program.       A program      is an organizational         set of
activities      directed     toward    a common     purpose.      Reports     can be
prepared     at each     activity     level   and rolled-up       to higher
levels.      Performance       reports    applicable      to the program
entity    enhance     cost   and benefit      analyses.      The analyses,         in
turn,    facilitate      decision-making        based   on current      cost
information,       and projections        of future     program     costs    based
on established        or expected      activity     levels.

Pr___ect   Reporting

Project    reporting    provides     specialized      reports    to monitor
and control     specific     activities.      Management      determines
those   activities     which    are  "projects."       Project    reporting
allows   management     to determine       the cost    of specific
undertakings,      thereby    facilitating      monitoring     and
evaluation.

Appropiiation         ReRorting

Appropriation      reporting     is the traditional       method    used    by
the Federal     Government.       It relates    directly     to the
obligation     of funds    rather   than   the cost    of programs       or
projects.      Economic    activity    is measured     when   funds    are
obligated     or expended.       It does   not  recognize     future
unfunded    liabilities      or such   costs   as depreciation       or bad
debts.




In summary,      we developed       prototype     management      reports     for
management's      consideration        along   four    reporting     dimensions:
organization,       program,     project,     appropriation.         With    the
exception     of the last       dimension,     the reports       provide
information     on total      costs    to allow     managers     at all levels
to better     control     their    costs.     The last     dimension     --
appropriation       reporting      -- provides      information      in the
traditional     Government       reporting     method     to ensure     that
obligations      and expenditures         are incurred      within    budget
authority.




                                      -27-
Do    Preparing   the statements    and            reports        in   the     proposed
formats    is feasible  from   available              data°

Because    financial      statements      have    not been   prepared
previously     for DOL agencies,          we had to determine         if the
proposed    prototypes       could    be prepared     from   existing    data.
We determined       that    they   could°      To do so, however,       we must
utilize    multiple      systems,     which    are not integrated;
therefore,     major    adjustments       may   be required°

Specifically,         substantial      effort      may    be    required        to
determine     the     following     amounts:

      --      Valuation     of various     types of        receivables
      --      Bad debt     allowance    and expense
      --      ADP   software    valuation
      --      Property,     plant    and equipment      and its related
                 allowance     for depreciation
      --      Capital    lease    determination
      --      Commercial     vendor     accounts    payable    valuation
      --      Future    unfunded     FECA   benefit    valuation
      --      Unobligated      appropriation        valuation         of grants
      --      Cumulative      effect    of prior     years'        transactions
      --      Donated    equipment     valuation
      --      Determination       or valuation       of    various          Unemployment
                 Trust   Fund    accounts

E.   Subsequent     financial        audit   is     necessary          to    ensure    that
financial    statements     are      reliable.

Financial    audits    are a generally     recognized    management     tool
used   in the private      and state   and local    government    sectors
to ensure    that   financial   statements     are  reliable°     Audits
are inherently     designed         to   attest     to    the    reliability          of
financial   information.

The   value     of auditing      was well    expressed           in    GAO's     Managin__g
the   Cost     of Government      which   stated:

      "The public     is generally     accustomed     to seeing
      audited,    and therefore     reliable,     financial
      information     in the published      reports    of private
      corporations.      Financial     reports    of Federal
      entities    should  also   exhibit    the same     or a
      greater    degree    of reliability     ....             Annual       audits
      are generally       regarded    as the best              way  to
      accomplish     this    reliability.   "




                                         -2 8-
A financial      audit   results     in an opinion        on the fairness                          of
presentation       of the financial        statements      -- their
reliability.        Equally    important,       a financial      audit
effectively      ensures    systeDs     discipline      in the financial
management     systems.       Financial      audits    evaluate     system
discipline     by testing      the consistency         in applying
accounting,      reporting,      internal     control,     and other
appropriate      standards,      policies,      and procedures.         A
financial     audit   promotes      improved     internal     controls     and
greater    management     attention      to the     reliability      of the
financial     data   for   individual      transactions       through     the
summary    financial     statements.

F.   Given   reliable   data,   the statements                        and  reports          provide
many  benefits    to management    and external                        users.

GAO's   Federal    Government      Reporting     Studz     (FGRS)   identified
many   users    of Federal     financial     data,    including     Government
planners     and managers,      legislators,       vendors     and securities
dealers,     corporations,      the media,      special     interest    groups
and the public.         Virtually     all users     expressed      the need    for
reliable     summary-level      annual    financial      reports.      Users
identified      the following      benefits     from   such    reports:




                         FINANCIAL           REPORT     USER    BENEFITS

     o     Overview         of    the     Government's          financial          position

     o     Common   framework                for   understanding              Government
           operations

     o     Common        data     base       for   analysis        and    decision-making

     o     Historical            perspective           for   future       spending         proposals

     o     Accountability               of    actual      results        by    comparison         to
           budget

     o     Key     to    more     detailed         information

     o     Communication             of      Government        information



Similarly,   GAO's   Managing    the Cost   of                     Government         cited       three
uses   of the information     from  financial                       statements         and
reports:         (i)    making     resource           allocation         decisions,         (2)




                                               -29-
determining       legal   compliance,            and        (3)    assessing       management
and program       performance.

In addition,     for     DOL managers,            audited           financial        statements
would  complement        several   high          priority           efforts       including:

      --     Secretary     of   Labor's  goal           to enhance             the
             effectiveness       of financial            management             systems.

     --      DOL's    current   efforts     to comply    with   the                   new
             Treasury     financial     reporting    requirements.

     --      DOL's   current    initiative             to    modernize          its     Integrated
             Accounting     System.

     --      DOL's   implementation        of FMFIA,                including         OMB
             Circulars    A-123    and    A-127.
                                                                    i




The primary    objective    of our studies                        of ETA and       OSHA  was to
determine   whether    reliable   financial                       statements       and  related
management      reports    can be prepared.        They   can.     To
facilitate      preparation,       we designed    prototype     financial
statements      and management       reports.     The prototypes        can be
prepared     from   existing     data,   although    substantial      work   will
be required       to determine      certain   amounts.      Once   prepared,
however,     subsequent      audit   is necessary      to determine
reliability.

Working    with    management,     OIG will     provide    technical
assistance      in preparing      the four     statements     and   reports
required    for GAO and Treasury°            OIG will     then audit     the
statements      and   reports   to assure      their   reliability      and to
identify    system     improvements.        OIG will    also   work   with
management      in preparing      desirable     supplemental      management
reports.

With   reliable    cost    information,       management,      Congress     and the
public   can make     more    informed     decisions.       Financial
management     systems     discipline      will   be strengthened        through
periodic    financial      audits,     thereby    promoting     more    reliable
data   at all   levels.

       IIo      FINANCIAL    AND MAN_E_NT                   INFORI_ATION   SYSTEMS
                 ARE   BEING  EVALUATED   FOR               DOL /_SENCIESo

Concurrent      with   the financial         reporting                  studies    in   ETA and
OSHA,   we   are   using  the Control         and Risk                  Evaluation      (CARE)




                                         -3 0-
audit methodology,      developed   by GAO, to review     and evaluate
each agency's     financial   management   systems.    These systems
reviews   will complement     the financial    statement   audits by
assessing    the management    techniques   used to ensure the
reliability     of financial   and program   output   data.    The
following   will be discussed      about our systems     reviews:

       A.    CARE   audit      methodology;

       B.    status     of    our    projects;       and

       C.    benefits        for    system    reviews.

A.     The   CARE   audit      methodology          is a top-down      approach.

The CARE audit methodology        starts at the top of the
organization   and systematically       reviews  each lower level.
Using this top-down     approach    with active management
participation   ensures    that all systems     are identified    and
the risk associated     with each system      is effectively   ranked
using a weighting    system.     Thus,   audit resources    can be used
efficiently   by targeting     high risk systems     for detailed
r ev iew.

This    methodology          will    determine       whether     systems:

       --    contain     adequate       internal       controls;

       --    conform   to the         Comptroller          General's   accounting
             principles   and         standards;

       --    effectively   provide            management  with useful,     timely,
             reliable,   comparable            and complete   information;     and

       --    effectively           support    an    agency's     mission    and
             functions.

Under the CARE methodology,   any system which supports    the
financial  management process  is evaluated.    As defined  by
GAO, the four phases  of this process   are depicted   on the
next page :




                                             -31-
                        THE   FINANCIAL       MANAGEMENT     PROCESS


                                          Planning     &

                 //J                  Programming             __
      Audit/                                                            Budgeting
      Evaluation



                                      Execution         &
                                          Accounting



Systems   which    accumulate     programmatic      statistics,     as well   as
systems   which    track   dollar    input,    are necessary     to support
the financial     management      process.      The CARE methodology
evaluates    management     information      systems,    as well    as purely
financial    systems.      Thus,    applying    the CARE methodology
enables   OIG and management         to assess     the  reliability    of both
financial    and program      data.

The CARE   audit   methodology     has four     phases.    As          one
progresses    through    the phases,    the scope      of the          review   is
narrowed   to review     only  the high     risk systems.              The four
phases   of the CARE    audit   methodology      are:

             I.        General    Risk   Analysis,
             2.        Transaction     Flow   Review   and Analysis,
             3.        Compliance     Testing    and Analysis,    and
             4.        Substantive     Testing     and Analysis.

Bo   OIG    is    completing    the first            phase, General  Risk
Analysis_        of CARE   system  reviews            of ETA and OSHA.

The General      Risk   Analysis     results    in a validated        inventory
of financial      and management        information      systems,
identification       of internal      control     objectives      and a
preliminary      risk   ranking    of each     system.      A financial
management     profile     of the agency       is thus     developed°      The
profile    provides     an overview      of agency      structure,     mission
and functions,       budget    process,     implementation        of FMFIA    and
OMB Circulars      A-123    and A-127,      major    system    problems    and
general    controls.

For both    ETA and OSHA,    we have    completed     our systems
inventory    and preliminary     system    risk   rankings.    We           are
working   with  agency   management     to refine     these  risk           rankings




                                            -32-
and are                    currently                       preparing                         a    financial             management       profile
of each                    agency.

Upon   completion    of the profile,     we plan    to proceed    into   the
next   phase   -- Transaction    Flow   Review   and Analysis.       During
this   phase,   controls   of selected     systems    are documented     and
evaluated.      Through   this process,     we will    further   refine   our
system    risk  rankings   and the financial       management    profile.

C°   Financial                                and management                                     information             system      reviews      have
many  benefits                                to management.

The diversity      of programs    and the volume       and  size   of DOL's
financial    activities     require    reliable    information     systems                                                                          if
DOL   is to effectively      and efficiently       accomplish     its
mission.     A comprehensive      review    of an agency's      financial
and management      information     systems    promotes    reliable
financial    data   and program     statistics°       With  reliable
information,      a manager    can make    valid   comparisons     between
financial    input   and programmatic       output    for effective
decision-making.

This           relationship                                is       illustrated                       in          the   following      pyramid:


                                    RELIABLE   INFORMATION     IS                                          THE FOUNDATION
                                   FOR EFFECTIVE    MANAGEMENT                                             DECISION-MAKING

                                                               /\
                                                           /        \
                                                       /                \
Management                                         /                        \
                                               /                                \
                                               /Evaluation\                                      Evaluates:             Inputs   versus
                                             /        of                             \                                   Outputs
......                                     /      Programs                               \
                                       /                      \Evaluates:                                               Reliability       of
                                   /         Management         \                                                       systems    and
OIG                            /       Information     Systems\                                                         output   data     --
                           /                   Reviews            \                                                     programmatic
                       /                                            \                                                   statistics
                   /                                                                                  \
               /           Financial                    System                      Reviews               \             Reliability      of
           /                                               &                                                  \         systems    and
       /               Financial                       Statement                         Audits                   \     financial     data--$



The   systems                              reviews              support   several   specific    management
activities.                                 First,              they  provide   valuable    input   into the




                                                                                         -33-
FMFIA process°       Under this process,      continuing    evaluations
are performed     and reported     to the President     concerning
internal   controls     (OMB Circular   A-123)    and financial
management    systems    (OMB Circular    A-127).     Second,   these
reviews   identify    system weaknesses      and system    improvements
to better    ensure   data reliability.       Finally,    they complement
financial    statement    audits   by assessing    the reliability      of
the underlying      systems   and financial    data.    Thus,   audit
testing   can be targeted      toward  those areas where       internal
controls   are weakest.


                   OIG 0S COM_£IT_T     TO IMPROVING
                 FINANCIAL   _/_AGEMENT    IS LONG-TERM

Identifying    weaknesses    and developing    effective,   efficient
ways to improve     financial   management   in the Department     of
Labor   requires   a comprehensive    approach   and a substantial
commitment    of time and resources.       Our approach    -- using   (I)
financial    statement   audits  and (2) financial     management
system   reviews   -- includes   an immediate    goal and a long-term
goal :

      A.   Immediate  Goal   --    audited     financial     statements     for
           the Department

      Bo   Long-Term   Goal -- effective,   efficient  systems              that
           produce   reliable financial   data and program
           statistics

Ao    OIG's immediate    goal     is audited     financial     statements     for
the   Depa[tnent o

Audited   financial    statements   will assure    the reliability     of
financial    statements    and promote  systems    discipline    by
testing   the consistency     of applying   accounting,     reporting,
internal   control   and other applicable      standards,    policies
and procedures.

Through   financial   audits,  OIG will evaluate   financial
reporting    in major program    agencies  which can then be
"rolled-up"    into consolidated     DOL financial  statements.

This approach    is   illustrated     in the     DOL   financial    reporting
pyramid :




                                    -34-
                        DOL                 FINANCIAL           REPORTING                    HIERARCHY

                                                                        /\
                                                                    /        \
                                                                /                k
                                                            /                        \
                                                        /                                \
                                                       /     DOL       \
                                                     /CONSOLIDATED\
                                                   /      FINANCIAL       \
                                                 /       STATEMENTS         \
                                               /         DOL AGENCY           \
                                              /FINANCIAL        STATEMENTS\
                                            /      ETA, ESA, OSHA, MSHA,        \
                                        /            _b L__S.
                                                           _____BA._V_E
                                                                    _T_S
                                                                      .....                       _X
                                    /             PROGRAM,     ACTIVITY,                            \
                                /                         PROJECT                                       \
                            /                           REPORT ING                                          \
                        /                           TRANSACTION     DATA                                        \
                    /                           (Financial     & Management                                         \
                /                                 Information      Systems)                                             \


We plan    to audit      the consolidated        DOL financial       statements,
as well    as audit      selected     DOL   agencies.      Currently,      we are
evaluating      the financial        management      of ETA, which      accounts
for 90 percent        of DOL's     total    funding,    and OSHA,     which
accounts     for 1 percent.          In Fiscal     Year  1987,    along    with    ETA
and OSHA,      we plan     to review     the Employment       Standards
Administration,         responsible      for 6 percent      of DOL's     funds°
The three      agencies     combined     account    for 97 percent       of DOL's
funds.     With    completion      of these     three   agency    evaluations        in
Fiscal    Year    1987,    OIG will     be able    to audit    the Fiscal       Year
1986   consolidated        financial     statements     of the Department.

B.    OIG's  long-term    goal  is effective,    efficient    financial
management    systems    that  produce  reliable    financial    data   and
programmatic     statistics.

Concurrent     with    our financial       statement     audits,    our
financial     management     system    reviews     will   assess    the
effectiveness       and efficiency       of the underlying         systems    and
the reliability        of programmatic        statistics.       Since   such
reviews    are comprehensive,         they    require    considerable
resources     and time.      However,     our audits      and   reviews    will
enable    us to assess      the reliability        of both    financial     data
and programmatic        statistics,      and recommend       viable    system
improvements      to strengthen      DOL financial        management.



                                            o


                                                            -35-
                      Chapter        3 --     Audit    Resolution



                           Audit     Resolution    Activity
                                      ($ millions)




 Period        Audit   Reports                             Amount                  Total
 Ending           Resolved                  Disallowed          Allowed         Resolved

3/31/85              456                      $44 o2                 $26.5       $70.1
9/30/85              387                      $29.0                  $39.9       $68.9
3/31/86              241                      $27 o2                 $21.8       $49.0
9/30/86              337                      $15.0                  $14.1       $29.1




Detailed    information        on audit  resolution              activity    for    the
period   may   be found       in the appendix    to           this   report.


SIGNIFICANT      RESOLUTION         ACTIONS



               Management          Commitments        to   Recover      Funds

Following    are   examples    of significant     resolution    actions
taken   by program     officials,     which  resulted    in the
disallowance     of costs     claimed    by the Department's
contractors     and grantees:

Federal    Share    of the Unemployment         Compensation       Program     --
The OIG is working        with    ETA to resolve       final    audit    reports.
ETA has already       issued    final    Findings     and Determinations          on
13 of the 23 final         reports    and has disallowed          $27.9
million.      Seven   states    have   already     refunded     $9.1 million       of
this   amount    to the U.S.      Treasury,     primarily     via transfers
from   the state     accounts     in the Unemployment         Trust     Fund.     The
remaining     $18.8   million     has been     established      as debts
against    the states.        In addition,      ETA is requiring         the
states    to demonstrate       that   they   are taking      administrative
actions    to correct     bookkeeping       and reporting       errors     that
have   caused    the  states    to overreport       Federal     benefit
charges.

FECA  Level    II/SDRR       #4 (Audit        Report   NOo     11-5-220-04-431)      --
In April    1986,   the      Department        negotiated       a settlement    with
the contractor      for      terminating         the FECS      Level   II development




                                          -36-
project.      The settlement   terms   resulted    in significant                cost
recoveries     to the Department     in which   the contractor
returned     $912,845  to the Department.

National     Council    of Negro  Women    (Audit   Report    NOo
11-4-236-03-345)        -- The Employment      and Training
Administration       disallowed   $549,921     because    accounting     and
other    records    did not adequately      substantiate:         (i) indirect
costs,     (2) administrative     costs,    and   (3) costs    associated
with   staff    and participant    activities/functions.

Interstate      Court   Reporters     (Audit  Report   No.
11-4-014-07-741)        -- The Department's       Office   of Procurement
Services     disallowed      $430,352   in questioned     costs.    These
costs   were    attributable      to an inadequate     billing   system
which   did not account        for costs.


National    Association     of Minority      Contractors     (Audit   Report
No. 11-5-171-03-350)        -- The    Employment     and Training
Administration      disallowed     the entire     contract    amount    of
$316,650    because    the contractor      did not maintain       books    of
accounts    or equivalent      accounting     records    for the contract
period.

La Raza   Unida De Ohio    (Audit   Report    No. 11-4-077-03-350)        --
ETA disallowed    $248,201   primarily     because   indirect      costs
were  allocated  without    an approved     indirect    cost    rate and
there  was no evidence     of approval     to purchase,      lease    and
rent equipment.

Kentucky     Commonwealth      (Audit   Report   No. 03-5-007-06-601)                --
The   MSHA grant     officer    disallowed     $227,824   in questioned
costs   which    represented     unsupported     indirect   and
depreciation      costs.

Commonwealth      of Pennsylvania      (Audit  Report           No.
03-5-039-06-601)       -- The MSHA     grant  officer           disallowed
$106,960     in questioned    costs   which   resulted           from   inadequate
documentation      and other    unallowable    costs.


Grantees    and contractors        may   participate         in an   appeals
process    after the grant        officer    issues        a final
determination,     and some       have   done   so.



     Management     Commitments       to    Use   Funds     More   Efficiently

During   this  reporting    period,    program            officials    and grantees
agreed   to implement    our   recommendations               to improve   agency




                                     -37-
systems    and operations       and thereby   avoid   unnecessary
expenditures      of program     and administrative      funds.     These
management     efficiencies      will  result   in a one-time     savings    of
approximately       $123.3   million   and annual    savings    of over    $1.5
million.      Following     are examples    of management     efficiencies
which   have   been   implemented.

FECA   Level    II/SDRR    #4 (Audit     Report    NOo 11-5-220-04-431)          --
Employment      Standards     Administration        (ESA)  managers     have    made
difficult     decisions     concerning      FECS   Level   II development.
In April     1986,   ESA's    managers    made   the most     difficult
decision     -- they    terminated     the FECS      Level  II development
effort    for the Government's         convenience.        In addition       to
cost   recoveries      indicated     on page    36, a total      of $7.7
million,     obligated     for Level     II and now deobligated,           is a
cost   efficiency.

This   negotiated     settlement      further    resulted     in a cost
avoidance     estimated     at $63 to $90 million.            These    figures
are based     on the fixed      price    of the contract,        which    ranged
from    $74 to $i01 million        depending     upon   various     options
selected     -- less    the   $ii million     which    was expended.
Although     the Department       avoided    spending     between     $63 and    $90
million    for FECS     Level    II, ESA still      requires     a replacement
system    for   the program.

Federal    Telecommunications        System    (Audit   Report    NOo
06-065-561-07-731)        -- This    report    identified     annual   cost
savings    of $926,680     and a one-time       savings    of $162,892,
totaling     $1,089,572.      Annual    cost   savings    resulted    from
better   management      of FTS costs      ($677,924),     utilization      of
contract    technicians     for installation        services     ($200,000)
and the elimination        of inactive      mainlines     ($48,756).

Indirect    Cost   Audits    (Audit   Report     Nos.   05-4-227-07-742,
05-5-070-07-742,       05-4-221-07-742,         05-4-092-07-742,       and
05-5-039-07-742)       -- We resolved      a    number   of indirect      cost
audit   reports    during    this   period.     Annual    savings    of
approximately      $640,000     are attributed      to adjustments      in the
indirect    cost   pool   and its base      as well    as removing
unallowable     items    (such   as land    depreciation,      accelerated
depreciation,      charitable      contributions,      and occupancy      costs)
from   the pool.      In addition,      ETA disallowed      and collected
$557,006    which   resulted     from   unallowable     direct    cost
billings.

Enforcement,      Assessment,      and Collections    (Audit   Report        No°
03-5-047-06-001)       -- As a result      of strengthened     debt
collection     practices,     MSHA    has referred  approximately




                                      -38-
 $17,000 in delinquent    civil penalties  and related    costs to
the IRS for collection     from individual  mine operators     as
taxable  income.    We believe  that if management    implements
our recommendations    and uses IRS' program    for Government
agencies  to recoup debts, the Department      can reasonably
expect to collect    i0 percent  of 1985's  delinquent    accounts
which were written    off by MSHA.    That amounts  to $164,000    in
one-time  savings.


Management   Commitments    to   Remedy   Administrative    Problems

Non-monetary     audit recommendations     are important     because
they direct attention      to improving    internal    controls   and
operating    procedures.     They also propose     shifting   program
emphasis   and policy    direction,   and making    legislative    or
regulatory    changes.    Corrective   actions    constitute
reasonable    remedies   and include   descriptions     and timetables
of specific     actions  taken, completion     dates,   and evidence   to
prove recommendations      were implemented.

Following   are examples   of    significant    resolution    actions
taken by program    officials     to remedy    administrative
deficiencies:

Longshore   and Harbor Workers ° Compensation          Act (LHWCA)
Special   Fund -- A Special     Fund was established        under the
LHWCA to pay for specified        benefits    such as second injury
claims°    Funding   for the Special      Fund comes from an annual
assessment    of each authorized      insurance    carrier   and
self-insured    employer   liable    for LHWCA benefit      payments°
ESA's and OIG's cooperative        efforts    resulted    in an insurance
carrier   agreeing   to reimburse     the Special     Fund approximately
$7.6 million°      For several    years it had underreported
payments   it made under the LHWCAo

Black Lung Self-Insured        Employees   (Audit Report NOo
02-4-072-04-433)      -- The Black Lung Benefits       Act requires
that coal mine operators        pay benefits    under the Act either
through   workers'    compensation    insurance    or being approved    by
ESA as self-insurers.         ESA has revised    its criteria    for
establishing     bonding   level requirements     for self-insured
employers.     The new criteria      increased   security   requirements
for the four major       (over $i billion     net worth)   self-insured
employers    identified    by OIG as not having      complied   with the
prior established      bonding   levels.

OFCCP Review   (Audit    Report No. 03-3-204-04-410)        --   In
previous  semiannual     reports, we disclosed   that      the   Office   of




                                  -39-
Federal    Contract Compliance     Programs   (OFCCP)         did   not    fully
carry   out its mandated    mission    and function.

The agency's      response     to our  recommendations      to correct
organizational       problems,    improve    enforcement,    and develop
program    assessment     capability     resulted    in resolution     of the
audit's    recommendations.        We intend     to follow   up on promised
corrective     actions    during   our audit     of OFCCP   enforcement
which   is scheduled      to start    in January     1987.

FECA   Chargeback    System    (Audit    Report    NOo 11-3-319-04-431)             --
Our September     1985   audit    report    expressed     an "adverse
opinion"    on the 1983     FECA    chargeback     listings    because    the
listings    did not fairly       present    FECA   disbursements      and
recoveries°

Since   report    issuance,     the agency     has taken    or plans
corrective     actions    which    should   strengthen     accounting        and
administrative       controls.      Changes    are being    made    in    both
FECA's   manual    procedures      and their    current    computer       system°



Unemployment      Insurance

UI Experience      Rating     (Audit   Report   NOo 03-3-203-03-315)        --
During   this   reporting      period   we continued     to progress     in
negotiations      on the    resolution     of this   audit°    ETA and OIG
agreed   that:      (i) an Experience       Rating   Index  (ERI)    is needed
which   will   rate experience        in all states'     UI tax systems;
and   (2) reporting      requirements      for experience    rating    must    be
changed.

We have    some   technical     disagreements      which   center  on the
methodology      to develop     the ERI and data validation°            OIG has
accepted    the UI method       of constructing       the Index,   with    the
following     proviso°      Where   projected     tax revenues    are used     to
compute    the index,     actual    tax   revenues    must  be reported     so
the index     can be adjusted       at year-end      to reflect   actual
experience°

The most     significant     remaining     impediment   to full    resolution
is the means      by which     the data    comprising   the ERI is to be
validated°       OIG's   concern     is that   the ERI must    accurately
reflect    the   states'    tax   structures°      Our recommendation      to
ETA was to reconcile      annually    the basic    index    components  of
tax  revenues  and benefit     charges   to beginning       and ending
cash  balances   in the   states'   UI Trust    Funds°      ETA has agreed
with  the management    value    of reconciliation       but believes




                                    -40-
that maintenance        of benefit   financing    and Trust   Fund
reconciliation       should   be separate    from  ERI development.

FECA   Level   II/SDRR    #4 (Audit     Report   No. 11-5-220-04-431)        --
Upon   ESA's  decision     to terminate       the FECS     Level  II
development     contract,     OIG   recommended      suspension    of all
development     efforts    and establishment         of a broadly
constituted,      high level     departmental      committee     to develop   a
comprehensive      and manageable       action    plan   for meeting    FECA
requirements.        ESA management       agreed   with    our
recommendations       and in June      established      the FECA Data    System
Evaluation     Project    Steering    Committee.

The   committee    has   concluded    that   the   FECS     Level   II   effort
cannot  be   salvaged     but that    some Level      II    design   logic    may
be useful    in future     automation     efforts.         FECA  automation
requirements      have   been  redefined     and generally       agreed    to     by
committee     members.      A number   of alternatives        for meeting
FECA   requirements      are under    active    consideration       by
committee    members.       The committee     plans    to develop      and
present    recommendations       to ESA on strategies         and options         for
ESA to consider        in developing     future    ADP support      for the
FECA   program    beginning    in Fiscal     Year   1987.




                                     -41-
                            OFFICE     OF   INVESTIGATIONS



"The most   effective   weapon  against             crime    is    cooperation    .oo
the efforts    of all law enforcement               agencies       with   the support
and understanding     of the American              people."

                                                   J.   Edgar     Hoover



During    this  period,    OI's    accomplishments       included    511
indictments      and 289 successful        prosecutions°        Financial
results    achieved    by investigations        totaled     $10,339,480
during    this  period    and   $18,646,943     for the overall       Fiscal
Year   1986.    The   figures    include    recoveries,      restitutions,
settlements,      and cost    efficiencies.

Cooperation      o.o support          oo. understanding    are        the   common
factors    which    form the         foundation   for effective
investigative      effort.     To that    end,   the Office    of
Investigations      continues     to strive     for enhanced     results
through    cooperation,     support,     and understanding       in our
relations     with  state,    local,   and federal     agencies.      This   is
evidenced     in the many     successful     joint  efforts    which    follow.


EMPLOYMENT      STANDARDS       ADMINISTRATION



The   detection     and prevention        of fraud      and abuse      within
programs     administered       by two component         offices      of the
Employment      Standards     Administration         (ESA)--the       Office    of
Workers'     Compensation       Programs     (OWCP)     and the Wage        and Hour
Division     (WH)--accounts        for   a substantial        commitment       of
investigative       resources      during    this    reporting      period.       The
investigation       of claimant       and provider       fraud     within    ESA's
compensation       programs     and violations        of Davis      Bacon    and
Related    Acts    by federal      contractors       remained      primary     items
of concern.        OI's   expanded     joint    investigative         efforts     with
WH continue      to result      in an increasing         number      of convictions
and administrative          debarments.       Previously       reported
initiatives      into medical       provider      fraud    within     ESA's
Division     of Coal    Mine Workers'        Compensation         (DC_gC)    Black
Lung   program     has begun     to have     an impact       on program       related
oxygen    equipment     costs.




                                       -43-
                  Federal        Employees°           Compensation        Program



Fraud        associated       with      compensation          benefits        paid    to   federal
workers     injured     on the job and in the         related     billings     by
medical     providers      for services     ,or equipment      to these     injured
workers     under    the provisions       of the Federal       Employees'
Compensation       Act    (FECA)   received    continued     investigative
attention°        During    the last    6-m,onth   period,     OI opened     74
FECA    related    cases    and closed     70 cases     resulting     in over
$2,369,738      in fines,      recoveries,     and   restitutions°         In most
instances,      the   submission      by medical    providers      of false
billings     and claims       for  services    not provided,       along    with
the   concealment       by the recipient       of earned     income    from
employment,       continued      to be the most     prevalent      findings      in
these    cases°



Operation         "Deep       Pockets     _

With   FECA    charge-back      costs    for the year       of approximately
$17 million       for compensation         and medical      payments     for
approximately        6,000   civilian      employees     at one location,         and
about    $8 million      for some     12,000     employees     at another,      the
UoSo   Navy    Sea   Systems    Command     questioned      the gross     disparity
between     these    locations°       This    disparity,     combined     with
intelligence       information      from    Naval    investigators,       the
California      Bureau     of Medical      Quality    Assurance,      and a
medical     provider     profile    developed       by the Atlanta       Regional
Office    of Audit,      led to a joint        pro-active      investigation
with   the Navy      of several     doctors      and pharmacies       in the Long
Beach    area who were       suspected      of fraud     against     the federal
workers'     compensation       program°

This   continuing      investigation,      initiated     in March    of this
year,   has   resulted     in an indictment       of a FECA     claimant,    a
doctor,    and his     receptionist°       If convicted,      the doctor
faces   possible     30 years     of incarceration       and fines     of
$60,000    as well     as debarment,      and his    receptionist      could
receive    up to i0 years       and   $20,(]00  in fines     for her part      in
alleged    false    billings    for treatment      not provided°
Investigative       attention     is continuing      and additional
indictments      are anticipate,_o

Examples         of   other     significant            FECA   claimant        fraud    cases
follow°

        --       In   the     recipient        case     developed        as   a   result    of
                 Operation        "Deep       Pockets,"       a   FECA    beneficiary          was




                                              -4 4-
              indicted      on four    counts    of making     false   statements
              regarding      his   employment     status    and income°
              Through     investigation,       it was    determined     that   he
              had been      employed    as an electronic        design    engineer
              and operated       a television      repair    shop while      also
              receiving      temporary     total   disability      benefits°
              OWCP    has established       an overpayment        of $129,000      in
              this    case°     Trial    is pending°      UoSo    Vo Gollnick
               (CoDo   California)


         --   After   a 5-day     jury trial,      a former     FECA    recipient
              and his wife      were   found    guilty    of their      involvement
              in a scheme     to under      report    earnings     and employment
              to OWCP    during    the years      1979-1984o       They    had
              previously     been    indicted     on charges     including
              conspiracy     to defraud,       false   statements,       and misuse
              of a Social     Security      Number°      On the third       day of
              the trial,     the FECA     recipient      failed    to show     and an
              arrest   warrant     was   issued    by the court°         OWCP
              declared    a forfeiture       of $78,351      in this     matter°
              The defendant       is awaiting      sentencing°        UoSo    Vo Ross
              et alo    (WoDo   Washington)



                                  Black     Lung     Program



As   a    result     of   OI's   efforts,        DCMWC   program   officials     have
recognized   a significant       savings    in funds    expended   for
unnecessary    oxygen    related    equipment°     For   example,    in the
last 3 fiscal     years,    one  DCMWC   office   estimated     a savings   of
over   $2ol million     due to either      OIG directed     or DCMWC
initiated          retesting     of miners        to determine     whether     they
qualified          for oxygen     related        equipment°

Investigative       results     in the Black      Lung    program   reported
this   period    include     a case     in which    the granddaughter       of a
miner's    surviving     wife    was   placed    on probation      for 2 years
and ordered     to make      full    restitution     after    she pled   guilty
to cashing     Black    Lung    benefits     checks    issued    to her  deceased
grandmother     UoSo    Vo Elifrits        (NoDo  Oklahoma)°

In another     case,   the    son of a woman     receiving     Black    Lung
survivor's     benefits     kept   all benefit    checks    issued    to his
mother   after    her   death    in 1977o    In April    1986,    after    an
investigation      was   initiated,     he returned     63 checks     totaling
$35,427o57°       Prosecution      of this   case was    declined°




                                          -45-
                             Wage      and    Hour    Program


The Wage    and Hour  Division               (WH) within    ESA enforces    and
administers    the Fair   Labor              Standards   Act   (FLSA).   This
legislation      regulates      minimum    wage,   overtime,      child   labor,
and   special    working     conditions     on virtually       all employment°
WH also    has coordination         and oversight       jurisdiction      for   the
Davis-Bacon      and Related       Acts   (DBRA),    the Walsh-Healey        Public
Contract     Act   (PCA),    the Service      Contract     Act   (SCA),   and the
Contract    Work    Hours    and Safety     Standards      Act   (CWHSSA)    that
require    prevailing      wage,    fringe    ]benefits,    and safety      and
overtime     standards     on federally       funded    or assisted      contracts
for   construction      or for goods       and   services.

Investigations,        conducted    with   the assistance      of WH and
other   law enforcement        agencies,     are focused    primarily     on
government     funded     or assisted     contracts°     These    contracts
represent     approximately       $30-$40    billion  in construction        and
approximately       $13-$15    billion    in service    contracts.

Coordinated      efforts    in the past      fiscal    year   have   resulted    in
21 contractors       and individuals        being   indicted,     17 being
convicted,     $895,726     being    recovered,     and 32 individuals        and
contractors      debarred    from    bidding    on future     government
contracts°      The   bar graph      below   illustrates      the   results   of
OIG's   efforts,     working    with    WH,  in these     investigations:



                  Wage & Hour P:rogrema[nves igat ons




         o

         E
         N


             10




              0
                   F"/-I _     FY=I_            FY-11_5     FY- I E:_i




                                       -46-
Listed   below  are examples           of the criminal    conduct     by   some      of
the contractors    who have           been convicted   based   on    our   joint
efforts:

     --      A contracting      firm   and two of its officers           pled
             guilty    to one count      each   of making     false    statements
             to the government°          The   firm,   its president,       and
             vice   president    were    indicted     by a federal      grand
             jury   and charged     with    29 counts     of making     false
             statements     and aiding      and abetting.        The contractor
             had worked     on i0 Housing       and Urban     Development
             contracts     over  a 2-year      period°     The president       was
             given   a suspended      sentence,      5 years'    probation,      and
             ordered    to make    restitution       to the   employees     of
             $74,163.      U_S.  Vo A&V Brothers.         Inc. , et alo       (WoDo
             Pennsylvania)

     --      The     owner   of    a painting    company   under   contract    to
             the Army     was   sentenced    to serve    6 months    in jail,
             fined    $i0,000,     and ordered    to make    restitution      to
             his employees       of $91,193.      The painting      company    was
             also   fined    $i0,000,     and an employee     was   permitted
             to enter     into pre-trial      diversion°      UoSo   Vo General
             Painting     Co.   Inc.,   et al.   (E.D°   Michigan)




                         ETHICS     AND   INTEGRITY    ISSUES



High   ethical    conduct     is of utmost       concern     to the Inspector
General,     as the disclosure         of employee      misconduct      damages
the   reputation     of all federal        employees      and undermines       the
public's     confidence.       OI continued,        with   the Office      of the
Solicitor,      to provide      departmental       training     on ethics    and
integrity     issues    that    DOL supervisors        and managers      might
confront     in their    day-to-day      activities°         These   sessions
continue     to be well      received,     with    some attendees       requesting
special    sessions     be incorporated         into   their    agency's
scheduled     program    training.


EMPLOYMENT      AND    TRAINING      ADMINISTRATION



                             Job     Training   Programs

While   OI's       investigations   of ETA's   Job Training         Partnership
Act   (JTPA)       and the Comprehensive     Employment   and       Training    Act




                                       -47-
(CETA)    are   requiring    an   increase    of OI time,  considerable
results    were    achieved°      The  following   are examples    of
current    CETA    cases:

     --     As a result       of a joint     investigation         of the Gary
            Manpower     Administration        (GMA)    in Gary,      Indiana,
            under    the   direction     of the UoS°       Attorney,      by OI,
            and   IRS,   the former      president      of a Private        Industry
            Council     (PIC)   and   her   spouse    were    indicted      on 35
            counts    of conspiracy,        false    statements,       CETA    fraud,
            and mail     fraud°      The government's         loss    is estimated
            at over     $46,000°      U°S°   Vo Montgomery         and Montgomery
            (N°Do    Indiana)

     --     A related     investigation      resulted     in an 8-count
            indictment      charging    a Harvey,     Illinois,     couple    with
            conspiracy      to defraud    the Federal      Government      of
            more   than   $117,000     in CETA   funds    from   GMA   and with
            evading    over    $175,000   in federal      income    taxes°
            UnSo   Vo Perkins      and Perkins     (N°Do    Indiana)

     --     Three   operators     of      two  related    furrier    firms    were
            indicted    for   false       claims   and   CETA  fraud    in   Puerto
            Rico.     The   indictment       alleges    three    defendants
            contracted      with    the prime      sponsor,    to train     62
            eligible     CETA    participants       at a cost      not to exceed
            $564,425°       Investigation        identified      almost    $140,000
            in fraudulently         prepared     invoices     misrepresenting
            training     related     costs    paid   to the     defendants°
            UoSo   _° MartinezL_Ortiz            and Ponczek       (DoPo   Puerto
            Rico)

     --     A joint    investigation        by OI and the Immigration             and
            Naturalization       Service      (INS)    at the Gary       Job Corps
            Center,    St. Marcos,       Texas,     led to the arrest         of 18
            illegal    aliens    enrolled      as corps      members°       In lieu
            of prosecution,        they   were    ordered     deported     for
            illegal    entry    into the United         States°
            Additionally,       two other      illegal     alien    Job   Corps
            applicants     were    denied    enrollment       into    the
            program°      These    18 aliens      cost    the government
            approximately       $100,923     in the Job Corps          program
            alone,    and the     investigation        resulted     in a cost
            avoidance     of approximately          $58,138o      A Job Corps
            contractor     employee      had failed       to require
            documentation       establishing       the    aliens'
            citizenship°        This   was   immediately        reported     to
            program    officials      for corrective         action°




                                   -48-
                         ALIEN     LABOR      CERTIFICATION



During    this   reporting       period      the   Office     of    Inspector        General
continued    its effort       in detecting          fraud     and     abuse     of   the
alien   certification        process:

     --     As previously       reported,     a disbarred      attorney   was
            charged     in San Francisco       with   conspiracy      to file
            false    documents     to obtain    alien    labor
            certifications°         The alleged     scheme     involved
            co-conspirators        lining    up fictitious      job offers    and
            purported     to be employers        in Los Angeles       and Orange
            Counties,     California.       To date,     the investigation
            has   resulted     in 29 indictments,        18 convictions,      and
            recoveries      exceeding     $71,000.

            The  disbarred    attorney   was sentenced    to 5 years'
            suspended    imprisonment,    5 years'   probation,     fined
            $250,000    and ordered    to make  $6,000   restitution      to
            an alien   victim,    all of which   was paid within       48
            hours.    UoSo   Vo Weir,   et al.  (N. Do California)

     --     A Houston,    Texas,    immigration     attorney    was   charged
            with   88 counts   of mail     fraud   and the concealment        of
            material   matters     from,   and making     false  statements
            to, government      agencies.      The indictment      alleged
            that   the defendant      circumvented     the alien    labor
            certification       process     by:    providing      false
            information      about   13 corporations          ostensibly
            chartered     to serve     as employers       for    alien   labor
            certification       applicants;       providing      the   Department
            of Labor    false    information       about    the employers'
            attempts    to hire     American      workers;     and falsely
            representing      various     fictitious       employers      as having
            offices    located     at a residential         address,      which   is
            actually     a vacant     house    owned    by the     defendant.
            The   investigation       disclosed,      according      to the
            indictment,      that   the various       employers      were    neither
            engaged    in, nor contemplating            any,   business
            activity.       UoSo   v.__Gillette      (SOD.    Texas)


                       UNEMPLOYMENT          INSURANCE      PROGRAM



OI's   investigative        efforts   in the Unemployment                 Insurance
Program    continues       to suggest   that  fictitious
employer/employee          UI schemes   represent    one of              the    greatest




                                      -49-
threats    to    the   integrity      of     the   Unemployment         Insurance
program:

     --     Twelve    individuals       were   charged     in a 35-count
            indictment      that    included    conspiracy,      false   and
            fraudulent      claims,     mail   fraud,    and false
            representations         of social     security    account
            numbers°       In this     fictitious     employer/employee        UI
            scheme,     these    defendants     were   charged    with   using
            seven    different      fictitious     employer    entities,     to
            file   over    160 claims      for UI benefits°         A detailed
            accounting      of these   claims    determined      that    the
            Massachusetts      Department     of Employment       Security
            made   payments    in excess     of $750,000     as a result       of
            the   scheme°     These   defendants     have   been    convicted,
            sentenced     and orde]:ed    to make    $1,275,830       in
            restitution°       UoSo   Vo Littlefield      et alo      (Do
            Massachusetts)

     --     An    investigation        highlighted         in     the   last   report
            detailed    the        indictment    of a defendant    in Las Vegas
            who  allegedly          bilked    the State  of Nevada   and the
            Department     of Labor   out of ap.proximately     $118,000o
            The   indictment   charged   that   slx fictitious    firms
            were   established    and that    53 UI claims   were   filed
            by the    individual           purporting     previous     employment
            with   these   firms°           The   defendant     entered    a guilty
            plea   to one    count         of mail    fraud   and awaits
            sentencingo

            In conjunction     with  this   investigation,     the  State
            of Nevada   has filed    civil   charges    to recover    the
            established    losso    UoSo   Vo D'Angelo     (Do Nevada)

     --     A 120-count      indictment      charged   19 individuals      with
            fraudulently       obtaining     UI benefits.      The
            investigation       with    the Postal    Inspection    Service
            disclosed     that    between    January   1982   and May 1985
            various    closed     and   inactive    UI tax accounts     of
            legitimate      businesses      were    used  in a fictitious
            employee     scheme,     resulting      in the loss    of
            approximately        $250,000     in UI benefits°       The
            defendants      filed    false    UI claims    alleging    prior
            employment      with    these    businesses,    thereby
            generating      benefit     checks°      To date,   17 defendants
            have   entered     guilty     pleas°     UoSo  Vo Connolly     et alo
            (WoDo    Michigan)




                                      -50-
In an earlier      semiannual      report,     OI provided     information
detailing     the  indictment      and conviction       of an individual
operating     a fictitious      employer/employee        scheme    that   netted
over   $75,000    in UI benefits       from    13 states    in ill-gotten
gains.     Following     conviction,      the defendant      was   sentenced     to
a 5-year    prison    term.     Shortly     afterwards,     the defendant
escaped    custody    and established      more    fictitious     employer
accounts     in several    states    by paying     nominal    UI tax to have
such   accounts    appear   legitimate°        At the time     of
apprehension      the  subject    admitted     guilt   in this    second
scheme    and cooperated     with    OIGo    The photographs       below   show
a fraction     of the material       recovered     by OIGo




                .   .   .   FICTITIOUS      NAMED   BANK   ACCOUNTS




                                     -51-
                                                                _ -   : _i   ,_



 o o   o FICTITIOUS            POST            OFFICE      BOXHOLDERS
            (PoOo        Box   receipts              and    keyso)




                    "_            I___....;_        --_    ,j




                                               i:



He is now    serving   the    remainder  of his                              previous
sentence°     UoSo   Vo Jones     (Do New Mexico)




                           -52-
As previously   reported,           we continue    to    use the  "cluster
approach"   in addressing           single  claimant      fraud  cases°    Here
are a few examples:

    --     An investigation     initiated    through    a cooperative
           effort   with  the Alaska    Department     of Labor
           identified    16 individuals     who  filed   UI claims    with
           the State     while    being   gainfully     employed    in other
           states°     They    were   indicted    on mail     fraud  charges°
           The   indictments      alleged    that   approximately     $30,000,
           in fraudulently        obtained    benefit     payments,   were
           received    by these      defendants°       UoSo Vo Hawks     et alo
           (D° Alaska)

    --     In Tennessee,       indictments     charged    26 individuals
           each   with   one count     of mail    fraud   and one count       of
           making    false    statements°      The   indictments      alleged
           that   these    individuals     willfully     supplied    false
           information       to the Tennessee      State    Employment
           Services     that   caused    UI payments     of over    $30,000    to
           be authorized°         UoSo   Vo Phipps    et alo    (MoDo
           Tennessee)

Unemployment        Insurance      for Ex-Military       Service    Members     (UCX)
also   holds     potential      for considerable        Federal    Government
losses°

     --    A 15-count     indictment         charged    six individuals     with
           conspiring     to defraud         the  State    of California    and
           the Federal      Government        of $650,000     in UI payments°
           The   defendants     devised       a scheme     to obtain   benefit
               payments     by using    fraudulent      "Armed   Forces    of the
               United    States   Report    of Transfer      or Discharge"
               forms    and filing    claims    as unemployed       honorably
               discharged     veterans°       (Recently     discharged    military
               personnel     are entitled      to receive      UI benefits.)

               Upon   discovering      this  scheme    the State   of
               California     and   Department     of Labor   took   corrective
               action    to help    preclude    recurrences°      UoSo   Vo
               Alperin    eta_!-    (So Do California)




                                     -53-
                      OFFICE    OF    LABOR      RACKETEERING



The Office     of Labor     Racketeering        (OLR)  enforcement      program
consists    of three     operational       segments:      Employee     benefit
plans,    labor-management        relations,      and internal      union
affairs.      Corruption      in pension      and welfare     plans    remains
the highest      investigative       priority     and continues       to receive
nearly    65 per cent      of the OLR      resources     nationwide.       This
commitment     is commensurate        with    the scope     of identified
abuse   and consistent       with    the Secretary       of Labor's     goal    to
protect    the   retirement     security      of the American       worker.      For
this   reporting     period    alone,    there    were  39 individuals        or
businesses     indicted     for violations        involving    benefit     plans.

Within    the segment     of labor     management       relations     OLR has
implemented      a long-range      planning      process    to identify     those
labor   intensive     industries      most    vulnerable     to racketeering
in the form      of extortion,      payoffs,      bribery,    bid-rigging      and
conflicts    of interest.        Major     investigative      efforts    have
been   initiated     in the following         industries:       Building    and
construction      trades,    garment,      and waterfront.         This
operational      segment   accounts      for   approximately       25 per cent
of the OLR     enforcement      effort.

During    this  reporting    period,          the Office    of   Inspector
General    executed    a Memorandum           of Understanding       with  the
Federal    Bureau    of Investigation       (FBI)  governing          matters   of
concurrent     investigative      interest    between    OLR       and the FBI.
This  working     agreement     is designed     to promote         a more
comprehensive,       systematic    federal    enforcement          effort    in the
organized     crime   and labor    racketeering      arena.

Operational       effectiveness       is expected     to improve
significantly        with   the continued      application    of modern
technology.        OLR has acquired        a computerized     micrographic
record    and retrieval        system   that will     provide   special    agents
with   a national       labor   racketeering      data base.     Such   a system
will   prove    to be a critical        foundation     for future    OLR
enforcement       efforts.      Investigative      efficiency    also   should
increase     with    the installation        of an automated     investigative
management      system.

For this    semiannual     period,          OLR   investigations   resulted      in
indictments     of 53    individuals           and 18 convictions.      The
indictments     reflect    an alleged    fraud   of approximately    $i
million    against   employee    benefit    plans,  and convictions
involve    employee    benefit   plan   fraud   of approximately    $i
million.




                                     -55-
Fiscal   Year  1986   (October    i, 1985,    to September    30, 1986)
marked   a record   year    in terms   of the results      of
investigative     operations°       As shown    in the graph   below,
indictments    increased     28 per   cent   to 114   in FY 1986   compared
to 89 in FY 1985.        Convictions     declined   to 56 in FY 1986
compared   to 67 in the prior      year.     Although    the growing
complexity   of OLR cases    and the     related    increase    in judicial
processing   resulted  in a decline       in the    number    of actions
disposed   of by the courts,     OLR's    conviction      rate  increased
to 93 per   cent  in FY 1986    from 84 per      cent   in the prior
year.




Significant     cases  of this   semiannual    reporting    period   are
summarized    below   by program   segment°




                               -56-
                            Employee       Benefit   Plans


Michigan  Conference         of   Teamsters      Welfare      Fund
Detroit w Michiqan

Four   defendants,     indicted    on December     21, 1984,   on charges
of racketeering       involving    the   awarding   of the health    care
contracts    of the Michigan       Conference     of Teamsters   Welfare
Fund,   were   convicted     on September     19, 1986.

Charles    F. Collins,       former    administrator         of the welfare
fund,     was   convicted     of one count        each    of racketeering         and
racketeering       conspiracy      and four     counts     of accepting
kickbacks°       Francis     Richard     Fitzsimmons,        former    fund
trustee,     was   convicted     of one count        each    of racketeering,
racketeering       conspiracy,      and receiving         kickbacks°        Sol   C.
Schwartz,     former    manager     of two companies          that   provided
claims    service     to the fund,       was   convicted      of one count
racketeering       conspiracy°        Roger    Towne,     a former     officer     and
director     of three     businesses      that    provided      services     to   the
fund,   was convicted        of one count       each    of racketeering
conspiracy      and of paying       kickbacks.        Terrence      Lo Porter,
owner   of a healthcare         service     and an insurance         agency,      was
acquitted     of all three       counts     against     him.

The 1984     indictment     had charged       the  defendants      with
conducting      an enterprise       through    a pattern     of racketeering
activity°       It had also      included,     as unindicted
co-conspirators,        the   late Allen      Mo Dorfman     of Chicago,
Illinois,     administrator       of the Teamsters        Central     States
Pension    Fund who was murdered           in January     1983,    and the late
Edward    Jo Brown,     Roger   Towne's     employer,     who   died of natural
causes    the week    before    the    indictment     was  returned.

According     to the indictment,         the scheme      to defraud    the
welfare    fund    included    racketeering      activity     to influence
Collins    and Fitzsimmons.          Brown   had sought      to sell   a package
of health     care    service   contracts     through     his corporations       to
the fund°       Schwartz    agreed    to receive      commissions     from Brown
in return     for   assisting     Brown    in obtaining      the  contracts.
Towne   offered     to give    Fitzsimmons      future    employment     because
of his position        and his support       for the service       contracts.
Collins    agreed     to accept    future    employment      from Brown     in
return    for his support       of the Brown       plans.

Collins   is already   in prison    on a prior               federal   conviction
of perjury   in this   same  case.    The  other              defendants    are free
on bond pending    motions   for   a new  trial              and appeals.




                                    -57-
This   investigation      was   conducted    jointly   by OLR's    field
office    in Detroit,     the Federal     Bureau    of Investigation,               and
the   Internal    Revenue    Service°     UoS.   Vo Collins    et alo              (EoDo
Mi ch o)



Teamster    Locals      191,   443,     1035,    677,    493,
Connecticut

Eight   Connecticut     Teamster     Union   officials            and seven  other
persons   were   indicted     June  27,1986,     in New           Haven  on charges
of embezzlement      from   Teamster     health   plans           and of attempting
to thwart    the grand     jury's    investigation°

The   Teamster     officials      include       four    from    local   191   in
Bridgeport°       They    are Anthony      Go Rossetti,
secretary-treasurer;          Fred Jo Roberto,         retired
secretary-treasurer;          Mario   Salvatore,      president;       and Joseph
Mo Roberto,      a business      agent°     Other    Teamster     officials
included     in the    indictment     are Vincent       So Pisano,
secretary-treasurer          of local    443; in New      Haven;   Peter     Susca,
secretary-treasurer          of local    10215 in South       Windsor;     Phillip
Guaranaccia,       secretary-treasurer         of local     493   in Uncasville;
and George     Lamontagne,       president     of local      677 in Waterbury°
Also   charged    are   Carol    Rizzieri,     owner    of the Teamsters
Dental    Office    Company;    Johanna     Pisano,     administrator        of the
Teamsters     Tri-State     Joint    Fund;    Patsy   Pavalese,      St°,
administrator       of the Teamsters        Tri-State      Legal    Services
Trust   Fund;    Mary   Faber;    Louis    Turiano,     Sr° ; Stacia      Altieri;
and Louis     Mario°

Two   counts    of the     indictment      charge     Rossetti,      V° Pisano,     Fo
Roberto,     Rizzieri     and Faber       with   violating      the Racketeer
Influenced      and Corrupt       Organizations         (RICO)    statute.
Allegedly,      from   June    1965    through     January     1986,    the
defendants      conducted      the affairs       of an enterprise          through    a
pattern    of racketeering          activity     consisting       of multiple      acts
of embezzlement,         principally       involving      dental     treatments,
and two    separate      attempts      to obstruct       the grand      jury
investigation°         The   indictment       also    seeks   forfeiture       of the
proceeds     from   this    racketeering       activity.        The   total
embezzlement       involved     exceeds      $i00,000o

The remaining       counts    of the indictment     charge  obstruction     of
justice,     multiple     acts  of embezzlement,     and false
declarations      before     the grand  jury°    The indictment     follows
a 3-year  investigation          by the      OLR  resident    office  in       New
Haven  and the   Internal        Revenue      Service°     The Federal         Bureau




                                      -58-
of Investigation        is participating          in ongoing      phases   of   the
investigation.         U.S.v.   Rossetti         et al.  (D.     Conn.)



Robert   T.   Winzinqer    Company        and   Jack   Dickson
Hainesport,      New Jersey

The Robert     T. Winzinger      Company    of Hainesport      and Jack
Dickson,    a former     vice  president      of the company,       were
indicted    on June    18, 1986,      in Camden.     They   were    charged
with   filing   false    statements      to the U.S.    Department       of Labor
and to the U.S.       Department     of Transportation,        with
interstate     transportation       of property     taken   by fraud,      and
with   conspiracy     to commit     mail   fraud  and file     false
statements.

According     to the    indictment,       the company,      which    is engaged
in the construction         trade,     and Dickson,      who   supervised      the
payroll    and benefit       reporting     functions     for   the company,
under-reported       the amount      of money     the company       was required
to remit     to the    employee    benefit     funds.      Allegedly,      this was
accomplished      by omitting      the names      of eligible       employees
from   the   reporting     forms   and under-reporting           the hours
worked    by other     eligible    employees.        Total    amount    allegedly
defrauded     is estimated       to be at least        $500,000.

Also    included     in the    indictment      are charges       that   the
defendants      defrauded     the Turner       Construction       Company     of New
York   City    by billing     it for payments          to benefit      funds
purportedly       paid   on behalf     of Turner       employees     who worked     on
the Bally      Casino    construction       project     in Atlantic       City.    The
defendants      also   filed    a statement       with    the Department        of
Transportation        stating    that    the company       paid   full    benefits
to workers      on a federally        funded    highway     project.
Allegedly,      the company      under-reported         the payments       to the
benefit     funds.     U.S.v.      Robert    Winzin_er       Company    and Jack
Dickson     (D. N.J.)



Milwaukee     Drivers    Pension     Trust      Fund
Milwaukee_     Wisconsin

Two Milwaukee       area   businessman,      owners    of a marine     storage
and   service    business,     were   indicted    separately      on charges      of
conspiracy,      racketeering,       solicitation      of kickbacks      to
influence     an employee      benefit    plan,   and embezzlement
involving     the   Milwaukee     Drivers    Pension     Trust  Fund.      During
the time     covered    by the indictments,         Gary    N. Landru    was   a
vice   president     of the M & I Northern          Bank    in Milwaukee      and




                                   -59-
Charles     To Pieper      was   secretary-treasurer           for Teamsters
Local    344 and former         chairman     of the Board        of Trustees      for
the Trust      Fund°     Except     for   income    tax charges       against
Landru,     which    extend     to 1984,     tlhe indictments       cover    the
period    from    about    July    2, 1981,     through     June   23, 1983,      when
Landru    acted    as an agent       of the Trust        Fund.     The   indictments
included     charges     that    the defendants         converted     over   $285,000
to their     own   use and the       use of others         by soliciting      and
receiving      fees,    kickbacks,      commissions,        and other     things     of
value   from    various     applicants       for   real    estate   loans    from    the
Milwaukee      Drivers     Pension     Trust    Fund.


Landru   was   also   charged   with   embezzlement       by willful
application      of funds    by a bank   officer     when   he induced     an
individual     to obtain     a loan  of $8,400      from the M & I
Northern    Bank   and give    the proceeds     of the loan      as a
kickback    for   approval    of a $280r000     loan    commitment    from    the
pension    trust   fund.

Landru,    whose   29-count      indictment     was   returned    on April    23,
1986,   pled   guilty    on August       19, 1986,    to one count     of
racketeering      and one     count    of filing    false    income   tax
returns°      Pieper,    whose    indictment     was   returned     on August
27, 1986,     awaits    trial°      This    was a joint    investigation      by
the OLR    Milwaukee     Resident      Office,   the FBI,     and the    IRSo
Uo S. Vo Landru      and U. So Vo Pi_eper       (EoD.   Wiso)


International       Ladies    Garment      Workers    Union    Local    132-98
New York.     New   York

Vincent   Vetere,    an auditor     for the    International      Ladies
Garment   Workers    Union    (ILGWU),    pled  guilty    on July    17, 1986,
to one   of four    counts   of soliciting      and accepting      kickbacks
from   an employer     to lessen    the employer's      contributions      to
the union's     employee   benefit     plans°

The OLR New York       field    office    investigation        of Vetere     led to
a July    8 indictment.       Cooperation       in the     investigation       came
from   the union    and a New York        plastics      corporation,      whose
employees    are   represented      by ILGWU     Local     132-98o     Vetere     had
solicited    and accepted      four    payments      totaling     $1,300   from
the corporation°        He had falsified         his audit      reports    to save
the company     approximately       $12,000     that    it in fact     owed to
the   ILGWU  employee     benefit    plans.      UoS°    VSo Vetere      (S°D°
N. Yo)




                                    -60-
Teamsters      Local    436    Welfare       Fund
Cleveland,       Ohio

A Cleveland     area    businessman           and another   individual    were
indicted    September      17, 1986,          on 22 counts    of embezzlement
and conspiracy       involving     the        Teamster's   Local  436 Welfare
Fund.

Louis   Joseph  Marrali,   owner   of M&M                 Seamless    Gutters    of Maple
Heights,    and Eugene   "Gino"  Gallina,                  a former    employee     of
Thistledown    Racetrack   in Northfield,                    were  charged    with
involvement    in a fraudulent    medical                  claim   scheme.      Marrali
is also   charged  with   submission                of    false      documents   to   the
Local  436 Welfare    Fund.

The   indictment       charges     that    from    July    16, 1982,      to July      i0,
1984,    Marrali      embezzled      over    $49,000     from    the fund      by
submitting       false    employer      contribution        reports      and medical
bills    that    had already       been    paid    or were     to be paid       by
another     insurance       provider.       Between      November      i0, 1981,       and
May 29, 1982,        Gallina      allegedly      submit:ted      numerous      medical
bills    to the fund        that   had already        been    paid   by another
insurance      provider.        The   indictment        charges     that    Gallina
received      over    $33,000     in medical       benefits      to which      he was
not   entitled.        Also    included     in the indictment            are charges
that   between      April    and November        1982,     Marrali     falsely      listed
Gallina     as a bonafide         employee      of his company         and made      him
appear    eligible      for continuous          benefits      from   the welfare
fund.     According       to the     indictment,       Gallina      continued       to
submit    medical      claims    to the fund        that    had already        been    paid
by another       insurance      provider      and wrongfully         received       at
least    an additional         $15,000     in medical       benefits.

This   indictment    is part   of a continuing      probe   by the OLR
field   office    in Cleveland   of corruption      involving     Teamsters
Local   436 and its affiliated       benefit    plans.     This   indictment
brings   to 16 the    number   of individuals      indicted     to date.
U.S.v.     Marrali   and Gallina    (N.D.   Ohio)



                          Labor-Manaqement               Relations


Teamsters    Local   59
New Bedfordj     Massachusetts

Robert    C. Viera,  vice   president    and business    agent    of
Teamsters    Local  59 in New Bedford,      was  charged    September                       2,
1986,   in a 4-count    indictment    with  extortion,    witness




                                      -61-
tampering,       and   deprivation       of   a union    member's     rights     by
violence.

Viera   is specifically         charged    with    extortion     of the New
Bedford    Seafood     Co-op    in March    1984    when   he allegedly       called
an illegal      strike    because     they   refused     to hire   his    son°
Local   59 represents        the co-op     employees.        The indictment
also   charges    that    Viera    intimidated      and attempted       to
influence     the testimony        of co-op     employees      in their
interviews     with    government      agents    and scheduled       appearances
before    a special     Federal     grand   jury.      Viera    is also    charged
with   depriving     a local     59 shop    steward      of his rights      by
allegedly     assaulting      him   during    a meeting      at the local's
headquarters      on May 3, 1983o

The   indictment     is part   of a larger     probe    into  allegations     of
widespread     corruption     and racketeering       in the New Bedford
fishing    industry    by the OLR field      office     in Boston°     The
investigation       is being   conducted    in conjunction      with   the New
England    Organized    Crime    Strike  Force.      UoSo   v. Viera      (D.
Mass. )



Carpenters      Local   608
New York,      New York

John   Fo O'Connor,    business     agent, of Local   608,  United
Brotherhood     of Carpenters     and Joiners    in Manhattan,     was
arrested    on September    22nd    on state, charges    of bribery,
coercion,    and criminal     misc:hief.

He is charged       with    four    counts   of receiving         bribes    as a
labor    official.       Three    counts    allege     that    in 1982     and 1983,
O'Connor     solicited     and    received     three     bribe    payments     of
$ii00,    $600   and   $500    from    an undercover        agent    of the N. Yo
State    Commission      of Investigation          (SCI)    in exchange       for
O'Connor's      permission      to the owner        of a building        then    under
renovation      to use non-union         carpenters       on the site°         The
fourth    count    charges     that    in 1983    O'Connor      also   solicited
and   received     another     $400    in bribes     from    another     undercover
agent   of the SCI,     in exchange  for which   O'Connor    provided
non-union    carpenters     to work at a different    construction
project   and agreed     not to unionize  that   job°

Three   additional     state      charges   against      O'Connor      concern     the
intentional     destruction        of property     at    the site      of the
Bankers     and Brokers      Restaurant     in Battery    Park  City°     The
complaint      charges    that   the   .site was  damaged    by O'Connor     and
others,     acting   with    and at 'the direction       of other   local    608




                                     -6 2-
officers,     to coerce     the principals      of Bankers     and Brokers
into   using    union   carpenters.      Property     damage   to Bankers     and
Brokers    and to the Hudson        Towers   Housing    Company,     in whose
premises     the   restaurant    is located,      exceeded    $30,000.

This   investigation       is one in a series     of joint   efforts    by
the OLR field      office    in New York   City,   the New   York State
Organized    Crime    Task   Force,  and the   Special   Investigations
Unit   of the New York       State  Police  to identify     labor
racketeering      in the building      and construction    trades
industry.      The State     of New York v. O'Connor


                             Internal      Union    Affairs



Teamsters     Local    507    & Bakery      Local    19
Cleveland,     Ohio

Jackie    Presser,     president      of the International       Brotherhood
of Teamsters,       was   indicted     on May 16, 1986,      on charges     of
violating     federal     labor    laws as secretary-treasurer          of
Teamsters     Local    507   in Cleveland.      He was    charged    with
racketeering,       embezzlement       of union   funds,    making   false
statements      in records      required    by ERISA,    and filing     false
reports    with   the Department        of Labor.

Also   charged    were   Harold     Friedman,     a Teamsters     vice
president     and president       of both     Teamsters     Local   507 and
Bakery    Workers    Local    19,   and Anthony      Hughes,    recording
secretary     of local     507   and a business       agent    for local   19.

Allegedly     from   about    January     i, 1972,     until   at least
December     31, 1981,     the   defendants      conducted     the   affairs     of
an enterprise       through    a pattern      of racketeering        activity
consisting      of multiple      acts   of embezzlement.          Presser     and
Friedman    were    charged    with    maintaining      three    "ghostworkers"
on the payroll       of local     507.     The   three   who were     paid   but
performed     no work    were    named    as unindicted       co-conspirators
in the    indictment     and are Allen        Friedman     (Presser's      uncle),
Jack Nardi,      and George     Argie.

According     to the   indictment,     the  defendants     embezzled
approximately      $700,641    during   the 10-year     period.      Also,
Harold    Friedman    and Hughes    allegedly    embezzled     $17,000     from
local   19 paid    to Hughes    as salary     for which    he allegedly
performed     no work.




                                    -63-
This   indictment    was  the culmination      of a 4-year
investigation     by the OLR field      office    in Cleveland°      As
discussed     in an earlier    semiannual     report,    the previous
convictions     of Allen   Friedman    and Jack    Nardi    based upon        this
investigation     were   set aside    on October    4 and 9, 1985,
respectively°      UoSo   Vo Presser    et al.    (NOD.   Ohio)


                                  Miscellaneous



Walsh  Truckinq      Company
San Francisco_       California

The   owner   of a major     coast--to-coast      trucking     company    based
in North     Bergen,    New Jersey,     and two East      Coast    associates
were   indicted     on September     23, 1986,     on five     counts   of mail
fraud    and one    count   of wire    fraud   for   allegedly     defrauding   a
major    Northern    California     department     store°

The indictment       lists   Francis      Jo Walsh     of Englewood      Cliffs,
New Jersey,      president     of Walsh     Trucking      Company    which   is a
major    hauler   of clothes      in New York       City's    garment    district;
Charles     Fo Quinn    of Rydal,      Pennsylvania,       an attorney      for
Walsh    during   the period      covered     by the indictment;         and Peter
John   Gould,    Greenwich,      Connecticut,       a former     partner    in
Alliance     Industries     and a current        officer     in Gould    Paper
Company°      Gould   was   also    charged    with    two counts     of making
false    statements     to the grand       jury°

The   Indictment     charges    that  from    January    i, 1978,   to
September     24, 1985,     the three    defendants      devised  a scheme     to
conceal    from   Emporium-Capwell,        a division     of Carter    Hawley
Stores,    substantial      secret   payments     made   to the director      of
transportation       of Emplorium-Capwell,         Henry   Go Hobelmann,      for
favorable     treatment     in business     dealings.

The   indictment     charges     that Walsh     and Hobelmann      developed
and   submitted    a proposal       that   a new distribution       facility
and system      be created     for   t-he distribution     of
Emporium-Capwell        goods    hauled   by trucks°      Walsh   allegedly
received     $275,000    from    Alliance    Industries    through     Key GMC
of Cincinnati,       Ohio,    who   sold  trucks   and trailers      to
Alliance    who   in turn     offered    to lease    them  to
Emporium-Capwello        Hobelmann     concluded   an agreement      with
Alliance    for the lease;    however,     his superiors      at
Emporium-Capwell     repudiated     the agreement      and Alliance     sued
Emporium-Capwell    for breach      of contract    in federal     court    in
Ne_ York    City°  The   indictment     alleges   that    Gould




                                   -64-
participated      in the   scheme    by making     false  representations
regarding     Walsh's   assocation      with   Alliance   Industries    and
falsely    represented     that   Walsh    would   not benefit    from  the
Alliance     Industries    transactions.

The   defendants'      scheme    allegedly     further    defrauded
Emporium-Capwell        by concluding       a settlement       of the lawsuit
by allowing      Emporium-Capwell         to pay Alliance       Industries
$125,000     and  releasing      Alliance,     Walsh,    Gould,    and certain
companies     associated      with    Walsh   from   further    claims   or
lawsuits     in connection       with    the lease.      Quinn   is charged
with   assisting     Walsh    in concealing       from   Emporium-Capwell      the
nature    of the    relationship       between    Walsh   and Hobelmann
during    the litigation       in New York.

This  investigation            was  conducted    by    the   OLR   field   office    in
San Francisco     with         some assistance        from   the   FBI.    UoSo   Vo
Walsh  et alo    (N.D.         Calif.)



Bel   Air   Manor     Nursinq     Homes
Oakland     and     Haskell,     New   Jersey

On September      3, 1986,    a 16-count       indictment     charged     five
officials     of the Bel Air       Manor    Nursing    Homes   with   charges
involving     filing   false    alien    labor    certifications      and
harboring     illegal    aliens.      John   Fiorilla,     Bel Air president,
and his wife      Mary   Fiorilla,     secretary-treasurer,          were
charged    in both    violations.        Thomas    Fiorilla,     former
administrator      of Bel Air;      Francis     Scullion,     former    director
of nursing;      and Charles      Hirschkind,       former    director    of
finance,    were    charged    with   harboring       illegal    aliens°     On
September    30, 1986,      Charles     Ciolino,      president     of Medical
Staffers    International,        Inco,    pled    guilty    to an information
charging    him with     wire   fraud    and aiding       and abetting°       He
received    money    from   the   illegal     aliens     and their    families
for visas,     labor    certifications,         and other     related
immigration     papers     he falsely      told    them   he would    obtain    for
them.


According      to the indictment,       John    and Mary  Fiorilla    required
the   aliens    to join   a union    that    did not enforce     prevailing
wages    and benefits,     thus   enabling     management    to use an
illegal     cheap  source   of labor.




                                       -65-
  OFFICE   OF    RESOURCE     MANAGEMENT       AND   LEGISLATIVE   ASSESSMENT


For this semiannual     report,    the Office   of Resource
Management    and Legislative     Assessment   (ORMLA) continued
administrative    and management      and automative    data processing
 (ADP) services   and improvements;      provision   of legislative
and regulatory    assessments;     ethics and integrity      seminars
for DOL managers     and supervisors;     and productivity
improvement    and internal    controls   programs.    In addition,
ORMLA and the other OIG programs         have devoted    considerable
resources   to initiatives     of the President's     Council    on
Integrity   and Efficiency     .


ADMINISTRATIVE      AND     MANAGEMENT       IMPROVEMENTS


                            Work   Space     Management

Our continued   efforts   to collocate    resulted  in cost savings
for space and other operating       costs as well as improved
operational   effectiveness    through   increased  communication.
During this reporting     period   three initiatives    reduced  space
costs.

    --     Asbestos   problems   in the San Francisco     Office will
           force us to move to higher       cost space   (+50-60%)   in
           FY 1987.    The relocation    will last for a period of
           5 years.    Careful   space planning    for the new
           location,   utilizing   systems   furniture,   will reduce
           the total space requirement       and partially    offset
           the higher    cost.

    --     Construction   started   in Philadelphia    to permit
           moving   our Investigations   Office   from the Customs
           Building   to the Gateway   Building   which will
           accommodate   our Audit and Investigation      staff at
           $2.07 savings    per square foot.

    --     Planning    was completed  to move all our New York
           Offices    from 1515 Broadway  to 201 Varick  St. at                 a
           savings    of $9.96 per square foot.


                          Motor    Vehicle     Management

A study of motor vehicle utilization    and                 costs was
completed  during this reporting   period.                   As a result   of   the




                                    -67-
study,    a revised    policy     was implemented       to replace     GSA
leased    vehicles    that   have    an average     usage   rate    of less   than
i000   miles    per month   with     seized   vehicles     (vehicles
impounded     by law enforcement         agencies    and issued      to other
law   enforcement     organizations)o         This   policy    will   return
cost   savings     of between     $.07   and   $.29 per mile      per OIG
vehicle°


ADP   INITIATIVES

During  the   reporting    period         progress     1986     OIG  has continued
to work  toward    meeting    the        goals   set   forth     under  the OIG ADP
Master  Plano



                    Audit   and    Investigation          Training

OIG  has completed       installation       of additional     computer
capacity    at the    Dallas    Regional     Office   to support     training
of Audit    and   Investigative       staff   in computer     techniques°
This   training    is an essential        element   of the OIG plan       to
make   optimal    use  of staff     by enabling     personnel     to become
more   productive     through    the use     of appropriate      technology°


                            DESKTOP      MICROCOMPUTERS



The OLR    investigations      program    must    deal   with    the
traditional      forms   of racketeering,       eog°,    extortion,
kickbacks,     and bribery,     along   with    increasingly        more
sophisticated      white   collar   crimes     involving      complex
financial     transactions     and millions      of dollars.         The       volume
and complexity       of information        to be analyzed      in these
investigations       require     the   use of computers°         To reduce    the
time   required     to perform      complex    investigations      and to
assure    the application        of stringent       security   precautions      and
access    restrictions      to comply     with    the laws    regarding
protection     of Grand     Jury    information      and to prevent      the
compromise     of law enforcement          efforts,     the Office    of Labor
Racketeering      acquired     ten powerful,       stand-alone     desktop
microcomputers       for   its field     offices.       This  technology     is
being   used   for:

  -   complex    analyses     of   large     data   bases      relating   to
      investigations;

  -   preparing     supporting        case   documents;       and




                                      -68-
   -   documenting     serialization        and   indexing.

Soon after      delivery     of the desktops,         the Division      of
Information      Resoures      (DIR)    conducted     a comprehensive
training     program     tailored     specifically       for investigative
processes     and techniques.           OLR   staff   from   all ten field
locations     participated        in the training.          General
applications       common    to most     investigations        are now being
developed     by computer       specialists       for distribution       to OLR
locations     with    desktops.       This   effort    will    yield
considerable       cost   savings     as each     location     will  not be
required     to develop      their    own unique      approach.      All of these
standard,     uniform     applications       are based      on a set of
investigative       workpapers       developd     by OLR    agents.


                          PORTABLE      MICROCOMPUTERS



The Office    of Inspector      General     (OIG)   Office    of Audit     (OA)
administers     a comprehensive       audit    program    to independently
assess   departmental,      contractor      and grantee      organizations
and operations      for financial      and compliance,        for economy      and
efficiency,     and for program       results.      OIG assists
departmental     management     by identifying        program    deficiencies
and recommends      ways  to improve      the efficiency        and
effectiveness      of DOL programs.

To accomplish        this mission   in a timely      and economical     manner
requires    field     auditors   to enter,    access,    retrieve,   analyze
and report     on    information   electronically       stored   on many,
large   computer      systems.

As a result      of an indepth        requirements      analysis,       OIG
established      that   the audit      process    could     be significantly
improved     by acquiring       portable     microcomputers.          In fact,
recent    OIG   audits,     using    a small    inventory     of portable
microcomputers,        have    demonstrated      benefits      (reduced     costs
and improved       productivity)       inherent     in the application          of
ADP technology        to audit     procedures.       Consequently,         in the
beginning     of the year,        OIG  launched     a program      to procure
portable     microcomputers        which   culminated       in the award       of a
contract     on September       4, 1986.      The portables        will    be
delivered     during    the    next   reporting     period.




                                     -69-
                                Data    Communications

For several         years   the OIG      has attemped         to procure    a
value-added         network    (VAN)     services   in       order  to link        its
minicomputers      together      in such   a        way   that  electronic     mail
and large     amounts    of data    may be          transmitted     among
minicomputer      systems    efficiently            and economically.        Approval
was obtained      during    this   reporting           for OIG use of network
services.      Detailed     installation            and operations      planning
began   with   services    projected      to        begin    in the next    reporting
period.


LEGISLATIVE         AND   REGULATORY      ASSESSMENT

SECTION    4(a)   of the     Inspector     General    Act   of 1978    requires
the   Inspector     General    to review      existing    and proposed
legislation      and regulations        and to make      recommendations       in
the   semiannual      report    concerning     their   impact    on the economy
and efficiency        in the    administration       of the Department's
programs     and on the prevention          and   detection     of fraud    and
abuse    in departmental       programs.

The OIG     continues    to track,    monitor           and    support   the
enactment      of legislation     which   will          aid    in reducing
potential      fraud,  waste   and abuse:

     --       the Inspector      General     Act Amendments        of 1985,   which
              would   extend    the   protections      and requirements       to
              Federal    agencies     :not covered     by the    Inspector
              General    Act;   authorize      Inspector     General   personnel
              in all agencies       to administer        oaths   and
              affirmations,      when    necessary,      in the performance       of
              their   duties;    and   require     the Inspectors      General    to
              report    unresolved     audits    as part     of the minimum
              reporting     requirements      to the Congress.

     --       Law   enforcement      authority    for Special     Agents
              employed     by the Office       of Labor   Racketeering,      which
              would    include    the power     to make   arrests,    administer
              oaths    to witnesses,      carry   firearms    and execute
              search    warrants.

     --       the   False    Claims     Amendment      Act     of   1986   would
              provide    for the recovery       of increased    civil
              penalties     and for    the costs   of a civil    action
              brought    to recover      any such penalty    assessments
              from   losses    sustained    by the Government.




                                       -70-
      --       the Program     Fraud     Civil   Remedies    Act   of   1986
               provides    Federal      agencies   which    are the     victims      of
               false,   fictitious,        and fraudulent      claims    and
               statements      with   an administrative      remedy    to
               recompense      such   agencies    for losses    resulting   from
               such   claims    and statements       and provide    due process
               protection      to those    subject    to administrative
               adjudication       under   the Act.


ETHICS     AND   INTEGRITY      AWARENESS

During    the   reporting      period,     our two-hour      ethics     and
integrity     training      course    was   presented     to over 40
supervisors      and managers        in the    Department      through     the
Office    of the Assistant         Secretary      for Administration          and
Management's       Core Training       for Supervisors         Program.       This
course    trained     supervisors      to understand        their    role   in
dealing    with   questions       or problems      of ethics      and integrity
in the workplace,         which    include:       conflicts     of interest;
acceptance      of gifts     and gratuities;         outside    employment;
improper     use of government          resources     or facilities;        and
reporting     fraud,     waste,    and abuse.

The OIG participated     in the Office      of the Solicitor's
presentation    of "Knowing   Where   the Buck    Stops,"  a six-hour
ethics   and integrity   course   developed    by OIG and SOL.

A pilot    training      course    designed     to meet    the specialized
needs   of the Mine       Safety    and Health     Administration         (MSHA)
was presented        to 30 mine     inspectors     at MSHA's      Academy     in
Beckley,     West    Virginia.      This    is the first      step    in
establishing       an MSHA-specific        training     course     that
effectively       addresses     the   most   important     OIG concerns       in
this  area.


PRODUCTIVITY        IMPROVEMENT        PROGRAM

The Office    of Inspector      General     participates     in the
Departmental     Productivity      Improvement      Program    in two
important    ways.     First,    it establishes      goals   and objectives
for increasing      its own productivity;         and,   second,    it
identifies    for   departmental      management     those   functions   and
activities    performed     by other     DOL organizations       which  appear
to be suited     for productivity        improvement     initiatives.

In furtherance           of Secretary's      Order  3-86,    "Improving
Productivity        in    the Department      of Labor,"     the Inspector




                                     -71-
General    has announced     his  intention     to       give   financial
rewards    or recognition     to managers     and        employees     "who
achieve    unusual   results    in productivity           improvement      and   cost
reduction/avoidance.      "


INTERNAL     CONTROL     PROGRAM

The   OIG has    actively     supported   efforts     by OMB     and GAO    to
simplify     procedures     and   reduce  the paperwork        involved     in
implementing       the requirements      of the Federal        Managers
Financial     Integrity     Act.    The  Inspector      General    believes
that   the revision      of OMB Circular      A-123,     "Internal      Control
Systems,"     dated   August    4, 1986,   will    help    ensure   that    the
goals    and objectives       of the Act will      become     an
institutionalized        part    of the way   government       agencies
discharge     their   responsibilities.


GENERAL     ACCOUNTING      OFFICE    REPORTS

The General     Accounting     Office     (GAO)    Act   of 1982,     Section    720
and the Office      of Management       and Budget        (OMB)   Circular    A-50
 (Revised)   provide    policies,      procedures       and   reporting
requirements     to be followed        by executive        agencies     when
responding    to reports      by GAO where        followup      is necessary.
Previously,     OIG coordinated       the preparation          of Departmental
responses    and   insured    compliance      with    the Act     and Circular.
We are pleased      to report     that    the GAO     activity     has been
elevated    to the Under      Secretary      with    Secretary's      Order   2-86
to provide    high   priority     to GAO     findings.


FINANCIAL     MANAGEMENT

The OIG     is now    responsible       for   its own budget       and financial
management      process.       This    responsibility       was   shifted    from
the   Departmental       Management       at the beginning       of Fiscal      Year
1986o     With    these   added     duties,    we are    now able     to closely
track   our    obligations      and expenditures;         prepare     more   timely
financial      reports    and statements;         adhere    to OMB    and Treasury
guidelines      and procedures;         and  be more     responsive      to 0_     and
Congressional        inquiries     concerning      our financial       management
system°




                                     -.72-
PCIE   ACTIVITIES

The President's       Council    on Integrity      and Efficiency     (PCIE)
was established       by Executive      Order   12301    to plan  and
coordinate     projects    to reduce     fraud,    waste   and abuse    in
Federal    programs.      DOL-OIG    participation       on the various    PCIE
committees     and projects      includes:

COMMITTEES                ACTIVITIES

Coordinating              The  committee      identifies     potential
                          Council    projects     which   meet    the
                          objectives     of the Executive        Order;
                          surveys    all potential       projects     for scope,
                          impact,    prior   work    and  interest,      prior  to
                          decision    by Council      members;     and   serves
                          as liaison     between     the members      and
                          Chair/Vice     Chair  on agenda   items    for
                          monthly    meetings,    status  on and
                          coordination      of projects,   and other
                          information     of interest    to members.

Executive                 The   subcommittee     develops    and presents
 Development               workshops     on a broad     spectrum    of subject
                          areas    of interest    to executive,
                          upper-level,       and mid-level     staff.

Computer                  The   committee     assigns,     schedules,     and
                          coordinates     PCIE    computer     projects.      Two
                          current    projects     are the "Development         of
                          Documentation      Guidelines       for Computer
                          Assisted    Audits/Investigations"           and
                          "Survey    of Data     Communications       Technology
                          Issues."

Prevention                The committee     focuses  on preventive
                          measures   and expanded    use   of current
                          technology    to further   lessen    Federal
                          programs'   and operations'      vulnerability
                          to fraud,   waste,    and abuse.

In this    semiannual     report,    the Office      of Audit     discusses     two
audit   reports    conducted     under    the auspices      of PCIE.      Our
discussion     on the Federal       Telecommunications         System    (FTS)
utilization     within    the Department       begins    on page 19 .        Our
review   of DOL's     compliance     with    IRS'   information      return
filing   requirements      for   non-wage     payments    begins     on page    19.




                                   -73-
                        COMPLAINT         HANDLING          ACTIVITIES



The Office      of Inspector       General     is the focal      point    for
receiving      and tracking      reports     of alleged      fraud,    waste,    or
irregularities        in Department       of Labor     programs.
During    this    reporting     period    the OIG     received    1197
complaints      nationwide      from   the general      public,     departmental
employees,      Congress     and other     agencies.       These    complaints
were   made    directly     to the OIG     National     Office,     OIG Regional
Offices,     and   the OIG Complaint         Analysis     Office.      Following
is a breakdown        of the various       sources     of complaints       we
received:

    TOTAL     ALLEGATIONS       REPORTED:                                    1197

                            ALLEGATIONS              BY   SOURCE:


    Walk   - In                                                                 2
    DOL/IG    Hotline    Phone                                                 98
    Telephone     calls                                                        24
    Letters    from   Congressmen                                               6
    Letters    from   individuals               or
       Organizations                                                          34
    Letters    from  non-DOL         agencies                                546
    Letters    DOL agencies                                                  217

    Incident      Reports   from   DOL           agencies                     180
    Reported      by agent/auditor                                             68
    Referrals      from GAO                                                    22

    BREAKDOWN      OF   ALLEGATIONS             REPORTS:

    Referred   to Audit/Investigations                                       628
    Referred   to Program    Management                                       49
    Referred   to Other   Agencies                                            26
    No further   action                                                      243
    Pending     Disposition         at    end        of   period             251




                                         -75-
The OIG Complaint         Analysis     Office    (CAO)   serves     as a resource
for employees        and the general       public    to report      suspected
incidents     of fraud,      waste,    and abuse     in Department        of Labor
programs     and operations.          The  Inspector     General     Act    of 1978
provides     that   employees      and others     may   report    such    incidents
with   the assurance        of anonymity      and protection        from
reprisal.       CAO   received,     analyzed,     and processed        over   97
complaint(s)       from   all sources      during    the period.        Over   550
calls   were    received     on the    "DOL/IG    Hotline"     phone,     however,
of that    number,     only   27 were     actual   allegations,        and the
remainder     informational       type    calls.   Fifty-one      percent     of the
total   number     of complaints       handled    nationwide      were    referred
to OIG Audit       or Investigations.

Examples    of   allegations     handled   by    the CAO     that  led to
improvement      of government     management       during    this  reporting
period   are:

   --       An OIG    inquiry     substantiated      a complaint    that  a DOL
            contract     employee     filed   false    travel  expense
            vouchers.       The   investigation      resulted    in the
            individual      paying    back   $3,824.95     to the Department.

   --       A hotline     complaint     alleged    that   an individual    had
            been   discharged     improperly      because    of the
            interference      by an MSHA      inspector     during  a mine
            inspection.       As a result      of the OIG inquiry,
            administrative       action   was   taken    against   the
            employee.

   --       A hotline     caller     alleged    that   an individual     was
            filing    false    statements     to collect     unemployment
            insurance     benefits.       An investigation        by the
            Washington      Regional     Office    led to an indictment       of
            the   individual      for collecting       a total    of 15 benefit
            checks    amounting      to $2300    while   employed    by a
            government      organization.

   --      An investigation         was   initiated     based    on a
           whistleblower       complaint      that   a DOL employee
            received    payments     by check     from    an agency
           contractor.       An investigation          by the OIG     determined
           that    a subcontract:      existed    between     the individual
           and the contracting          firm.     As a result      of the
           investigation,        administrative        action   was   taken
           against    the DOL employee,         and the contractor          was
           notified     of the prohibition         of subcontracting         with
           agency    employees.        Subsequently,       the subcontract
           was   discontinued.




                                  -76-
                             MONEY   OWED  TO THE
                            DEPARTMENT    OF LABOR



In accordance       with   a request     in the Senate     Committee     on
Appropriations'        report    on the Supplemental       Appropriation       and
Rescission     Bill    of 1980,    the chart     on the following      page
shows   unaudited      estimates     provided    by departmental      Agencies
on the amounts       of money     owed,   overdue,    and written     off as
uncollectible       during    the 6-month     reporting   period.




                                      -77-
                                          ImBOR I_aKIV_S




Pr_;mm                   _      FY Thin   _mzivables    qumxi_       & Wmite-_fs      as of
                             913O186      9130186 1/   9130/86 2/    9130/86 3/     9130186 4/



]_Dd.ojnn_t:
         _c_mcd.s

FederalEmployees'
CcmpersationAct
- beneficiary/provider
  overpayments         $ 13,601           $ 26,289      $ 9,889        -$6,274     $ 9,258

Black Lung Program
- responsiblemine
  operatorreimburse-
  merit;beneficiary/
  provideroverpay-
  merits                      19,510       184,20-/         8,196       -4,880      159,748




- disallowedcosts;
  outstmm/ng cash
  balances;grantee
  overpayments                15,458       275,532         275,031     -29,788     207,000

_me Safety& Health

- mine operator
  civil penalties              5,840        9,888           7,526         -485            0

Pem_ionBenefit

- plan assets subject
  to transfer;employer
  liability;accrued
  pr_     income             181,649       38,391           9,000         -68            0

OSBA                           7,680       10,049           3,700         924        6,290

_S                               510          152             109        -121            0



Total                        $244,248     $544,508     $313,451       -$40,692     $382,296



See follo_ingpage for footnotes.


                                               -78-
i/   Includes     amounts  identified   as           contingent      receivables
     that   are   subject  to an appeals             process    that    can
     eliminate     or reduce   the amounts            identified.

2/   Any  amount   more  than    30 days  overdue            is delinquent.
     Includes    items  under    appeal  and not            in collection         mode.

3/   Includes     write-offs    of   uncollectible             receivables       and
     adjustments     of contingent     receivables     as a result    of the
     appeals    process  and reclassification         of disallowed     costs
     based   on documentation      submitted    after   audit   resolution.

4/   Approximately      70 percent       of    the    total     is   currently     under
     appeal   to an    Administrative          Law    Judge.




                                                                                           \




                                        -79-
APPENDIX




    -81-
                                   SELECTED      STATISTICS


Audit    Activities

    --         Reports   issued on D0L activities          ...........                   294
    --         Audit exceptions      ..............                        $ 47.3   million
    --         Reports   issued for other Federal          agencies      ......           15
    --         Dollars   resolved    ..............                        $ 29.1   million
                     Allowed    ................                           $ 14.1   million
                     Disallowed      ..............                        $ 15.0   million


Fraud    and    Integrity    Activities

    --         Allegations   reported       ...............                           1197
    --         Cases opened    ....................                                    720
    --         Cases closed    ....................                                    530
    --         Cases referred    for prosecution      ...........                      516
    --         Individuals   or entities     indicted    ..........                    511
    --         Successful   criminal    prosecutions     ..........                    289
    --         Referrals   for administrative      action     ........                 107
    --         Fines, penalties,     restitutions     and settlements        . 91,944,890
    --         Recoveries   ...................                                94,468,930
    --         Cost efficiencies       ...............                         $3,925,660


Labor    Racketeering       Investigation     Activities

    --         Cases opened    ....................                                       32
    --         Cases closed    ....................                                       42
    --         Individuals    indicted   ................                                 53
    --         Individuals    convicted    ...............                                18
    --         Fines    ....................                                  $     169,500
    --         Restitutions    .................                              $     825,388
    --         Investigative    monetary   findings   on
                     benefit   plan related    frauds   .......               $ 1,000,000




                                          -83-
                             SUMMARY       OF    AUDIT     ACTIVITY    OF   DOL    PROGRAF_
                                April       i°    1986     to   September    30,       1986



                                                                                                 Amo_t
                                                                       Amount      of         Recommended
Agency                        Reports           Grant/Contract         Questioned                 for
                              Issued            Amount   Audited          Costs               Disallo_ance



Employment    and
   Training
  Administration                  227           $5,047,528,506         $19,243,383             $25,670,993


Employment    Standards
     Administration                    2                    24,,699               ....


Mine Safety       and
   Health
  Administration                   I0                    4,188,,318             88,827               18,133


Occupational        Safety
   and Health
  Administration                   18                24,529,350              616,790                  --

Bureau     of Labor
  Statistics                       12               102,906,425                   ....


Veterans   Employment
   and Training
   Service                             8                 6,094,135                --                  9,414

Office     of
  Labor-Management
  Services                             1                  ......


Pension    & Welfare
   Benefits
   Administration                      1                  ......


Office     of
  Administration
  and Management
  (OASAM)                          14               2;9,454,580              841,438                419,970


Office  of      Inspector
  General                              1                  ......


Other    Agencies                  15                      916,504                ....



  TOTALS                          309           $5,225,687,517         $20,790,431            $26,118,510



                                                   -84-
                   SUMMARYOF AUDIT ACTIVITY                 OF ETA PROGRAMS
                     April     1,   1986       to   September    30,    1986


                                                                                      Amount
                                                                    Amount     of   Recommended
Program               Reports       Grant/Contract              Questioned              for
                      Issued        Amount Audited                Costs             Disallowance



Agency
  Administration               2           $        --          $       --            $     --

Unemployment
  Insurance
  Service                     15      2,055,899,152                 8,429,497         22,137,819

State Employment
  Security
  Agencies                    19      1,095,107,795                 1,306,052              558,554

JTPA Grantees                49            609,801,914                 292,697              253,100

Strategic
  Planning and
  Policy
  Development                  6               11,893,125               ....

Native Americans              16               18,068,323           2,329,002               450,036

Older Workers                  7           116,527,918                  --                   69,953

Farmworkers                   22           217,061,245                 194,564            1,208,193

Job Corps                     12               25,694,757              223,652               50,182

CETA Grantees                 79           897,454,277              6,467,919               943,156



  TOTALS                     227    $5,047,528,506              $19,243,383          $25,670,993




                                                    -85-
                SUMMARY    OF     AUDITS        PERFORMED    UNDER      THE     SINGLE        AUDIT   ACT
                                April   I,      1986   to   September         30,   1986



                                                                                                      Amount
                                                                          Amount         of       Recommended
Agency                             Reports        Gr_mt/Contract          Questioned                  for
                                   Issued         Amount   Audited           Costs                Disallowance



Employment    and
   Training
  Administration                        133       $2,258,525,463              $1,554,959                $606,179


Employment    Standards
     Administration                         i                24,699                  ....


Mine   Safety   and
   Health
   Administration                           4               743,358                  ....


Occupational           Safety
   and Health
  Administration                            9           18,429,609                  614,687                    --

Bureau     of    Labor
  Statistics                                9          102,816,697                   ....


Veterans   Employment
   and Training
   Service                                  7             5,193,949                  ....

Office     of
  Labor-Management
  Services                                 ........


Pension    and Welfare
   Benefits
   Administration                          ........


Office     of    the
  Assistant
  Secretary    for
  Administration
  and    Management                        .........


Other    Agencies                          13               698,323                  ....



  TOTALS                                176       $2,386,432,098               $2,169,646               $606,179




                                                   -86-
I   °!          i   i


         -87-
-88-
-89-
                 STATUS (IFAUDIT RESILUTIC_ _K3_IONS(I_B_X_INNIIg_
                                   OF UNRESfILVED_/IDITS


                         31_ 1986           RESOLVED            _ER        30_ 1986
                _        UNRES3LVED        (D_3_SES)            _        _VED
                REPOI_      _          RERD_      I_LIARS       REPOI_ES    I_LIARS

ETA:
  ADM]RX]          0               0        0             0        0             0
  UIS              7      11,662,598        6    11,662,598        i             0
  SESA            15       2,822,186       13     1,183,862        2     1,638,324
  JTPA GRTEES      4             164        4           164        0             0
  OSPPD            3         433,328        1       316,650        2       116,678
  DINAP           ii         614,057       ii       614,057        0             0
  IX)WP            1          35,523        1        35,523        0             0
  DSFP            15       1,325,800       15     1,325,800        0             0
  OJC             20       6,698,352       19     6,123,929        1       574,423
  CETA            23       2,339,570       19     1,100,227        4     1,239,343

ESA                5         912,845        5       912,845        0             0

MSHA               2         237,550        2       237,550        0             0

OSHA              i0         665,919        9       613,503        1        52,416

BLS                0               0        0               0      0             0

VETS               0               0        0               0      0             0

OLMS               0               0        0               0      0             0

SOLICITOR          1               0        1               0      0             0

OFC/SECY           3               0        3               0      0             0

OASAM             12      13,264,306       ii      450,671         1    12,813,635

(TI'HER
      AGY,         0               0        0               0      0             0

TOTAL           132      $41,012,198      120   $24,577,379      12    $16,434,819



Note: The differences between the beginning balances in this schedule and the
      ending balances in the schedule of the previous semiannual report result
      from adjustments required during the reporting period°




                                   -90-
                                _ESCLVED      _/DITS OVER 6
                                                FRD_ RESGLUTIGN



                         Audit                                           No of   Cost
Agency    Program   Report   Number   Name of Audit/Auditee              Rec     Exceptions


Under Investigation or Litigation:       i/

ETA       SESA      03-5-023-03-325   DELAWARE DOL-WIN                    1      $  135,118
ETA       SESA      04-4-156-03-325   _CKY     SESA                       1       1,503,206
ETA       CETA      03-4-062-03-345   SOUTHERN ALLEGHENIES CNSRT          4          35,728
ETA       CETA      04-4-029-03-345   BIRMINGHAM CONSORTIUM               1          20,970
ETA       CETA      05-1-156-03-345   ILLINOIS BOS                        2         598,852
ETA       CETA      05-4-067-03-345   DETROIT CITY OF                     3         583,793
ETA       OSPPD     05-1-301-03-350   CSRT V_VI_RE CORP                   5          75,013
ETA       OSPPD     11-2-084-03-350   MORGAN MGMT SYSTI_4S,INC.           3          41,665
ETA       OJC       11-3-144-03-370   BRUNSNICK JOB CORPS CTR             7         574,423
OASAM     OCD       05-3-065-07-742   DETROIT EMPL & TRNG IND. COST      ii      12,813,635

Awaiting Resolution:      _2/

ETA       UI        03-3-203-03-315   UI EXPERIENCE RATING _A/            3           -
OSHA      OSHAG     05-5-078-10-101   NE_ DIRECTIONS, STEEL_3RKERS _B/    3          52,416


  TOTAL                                                                  44      $16,434,819




1/ Ten audit reports are precluded from resolution pending the
   outcome of investigation or litigation.

_2/Currently working with program agency to resolve issue.

  _A/See Chapter 3, Audit Resolution.

  _B/OSHAallowed grantee until September 30, 1986 to provide
     additional documentation to support the questioned costs;
     OSHA expects to make a final determination by October 31.




                                           -91-
                           SUMMARY   OF AUDIT   REPORTS               ISSUED
                        DURING    THE CURRENT   REPORTING                PERIOD
                        APRIL   i, 1986   TO SEPTEMBER                30_ 1986




DEPARTMENT         OF     LABOR

  Employment            and    Training        .Administration

        Agency    Administration       (ADMIN)                                                 2
        Unemployment      Insurance     Service    (UIS)                                     15
        State   Employment      Security    Agencies     (SESAS)                             19
        Job Training      Partnership      Act  (JTPA):                                     112
           Grantees                                                                    49
           Office    of Strategic      Planning              &
              Policy    Dev   (OSPPD)                                                   6
           Native    Americans     (DINAP)                                             16
           Older   Workers     (DOWP)                                                   7
           Farmworkers      (DSFP)                                                     22
           Job Corps          (OJC)                                                    12
        CETA  Grantees                                                                       79

Employment         Standards          Administration              (ESA)                       2

Mine     Safety      & Health         Administration              (MSHA)                     I0

Occupational            Safety       & Health       Administration            (OSHA)         18

Bureau      of    Labor       Statistics        (BLS)                                        12

Veterans         Employment          & Training         Service                               8

Office      of    Labor-Management              Services          (OLMS)                      1

Pension      & Welfare            Benefits      Administration             (PWBA)             1

Office      of    the     A/Sec      for    Admin    & Management            (OASAM)         14

Office      of    Inspector          General                                                  1

Subtotal                                                                                    294

OTHER     FEDERAL         AGENCIES                                                           15

TOTAL                                                                                       309




NOTE:       See    last       page    for    abbreviations           used°




                                             -92-
                              LIST OF FINAL a.DIT REPOKI3 ISSTED
                                 APRIL 1986 TO _I_      1986




                                             DATE Sm_f
                             AIIDIT         ED
RI_ION _       PROGRAM   P,_:DRT
                               lqJ_Bl_        _          NAME OF AUDIT/_JDITEE



 02    ETA     UIS       02-6-040-03-315    08/04/86     I_ JERSEY
 02    ETA     UIS       02-6-041-03-315    08/04/86     _   JERSEY
 02    ETA     UIS       02-6-052-03-315    08/04/86     N_4 JERSEY

 02    ETA     JTPA      02-6-003-03-340    07/24/86     MDRRIS
 02    ETA     JTPA      02-6-058-03-340    08/25/86     N_ HAMPSHIRE

 02   ETA      (h_TA     02-3-410-03-345    06/04/86     ([ETABAYAM_
 02   ETA      (h-TA     02-4-049-03-345    07/03/86     }_/DSONOJTNIY E & T
 02   ETA      ([ETA     02-4-061-03-345    07/02/86     _SEX 03JNrf
 02   ETA      (_-TA     02-4-063-03-345    07/03/86     SCMERSETO]gEY *
 02   ETA      (_PA      02-5-(D3-03-345    04/01/86     ALBANY 03UNYf*
 02   ETA      (lh-TA    02-5-095-03-345    04/29/86     I_ JERSEY_         _    *
 02   ErA      (_TA      02-5-102-03-345    04/01/86     II/DS(]N
                                                                OJJI_Y
 02   ETA      (_TA      02-6-002-03-345    08/05/86     MZ_MD[fIHOOUNIY
 02   ETA      (_'ZA     02-6-008-03-345    06/23/86     CAM)I_OJTNIY
 02   ETA      (_PA      02-6-018-O3-345    06/20/86     _3FFIIKOJJNIY
 02   ETA      (_TA      02-6-029-<)3-345   08/04/86     _      (II3NFf
 02   ETA      (_-TA     02-6-043-03-345    06/23/86     _,         CITY OF
 02   ETA      CETA      02-6-04.5-03-345   06/23/86     PASSAICOJJlql_

 02    0ASAM   DKIM      02-6-054"-07-740 07/28/86       PAI2_R& ASSOCIA.XFZ

 02    OIG     AIIMIN    02-6-015-09-001    06/10/86     _        FILE _        M3T

 02   OSHA     19_/FNG   02-6-060-10-105    09/30/86     DEFI_IF__    IN OSHA PMA

 03   ErA      SESA      03-5--012-03-325 07/01/86       UI QI]ALITY
 03   ETA      SESA      03-6-011-03-325 04/26/86        DC DPT OF ]_P S]_VI(Y-Z
                                                                               FY 84
 03   ETA      SESA      03-6-012--03-325 04/26/86       DC DI_TOF _   SI_VI(_SFYS 81 82 83

 03   ETA      JTPA      03-6-016-03-340    05/29/86     MARYiAI_,PRIN(__'       S 00
 03   ETA      J'IPA     03-6-018-03-340    06/03/86     PA, MAHOIN3 XNSHP
 03   ETA      JTPA      03-6-019-03-340    06/03/86     _,          CITY OF

 03   ETA      (_-TA     03-$-020-03-345    04/23/86     SO _          _    Dh-V
 03   ETA      (_PA      03-6-020-03-345    07/22/86     PO_,       CITY OF
 03   ErA      _         03-6-022-03-345    08122/86     DIK_
 03   EFA      CETA      03-6-023-03-345    09/03/86     FENNSYLVANIADPT OF IABOR & IIq3USYI_




                                            -93-
                                             DATE SI_T
                             AUDIT          TO
RNGION I_]_NCY PROGRAM   RI_ONTlimBER         _-_NCY     NAME OF ;_JDIT/NK)ITEE



 03    MSHA    ADMIN     03-5-047-06-001    06102/86     _NFOR(124I_,ASSESSMI_ff
                                                                               AND _ONS

 03    _       GRTEES    03-5-039-06-601    04123186     P_qNSYLVANIA

 03    _       (]_H      03-5-031-<)6--61009/24/_6       DEFICIENf I_U_

 04    _       ADMIN     04-6-038-02-O01    04/01/86     AL INDUSTR/.AL
                                                                      _ONS

 04    EPA     UIS       04-4-198-03-315    08/14/86     F_DERAL SHARE/UI,_(I<Y
 04    h-TA    UIS       04-5-015-03-315    05/12/86     FEDERAL SPARE/UI,ALABAMA
 04    ETA     UIS       04-5-060-03-315    06/20/86     _       SHAREATI,GEONGIA
 04    ETA     UIS       04-5-062-03-315    05/12/86     FI_3ARALSHARE/UI,_     CAR(]LINA
 04    ETA     UIS       04-5-069-03-315    04/24/86     FEDERAL SHARE/UI,RHCDE ISLAND
 04    ETA     UIS       04-5-071-03-315    09/11/86     F_DERAL SHARE/UI,
 04    ETA     UIS       04-5-088-433-315   06/09/86     FEDERAL _E/UI,   MISSUJRI
 04    ETA     UIS       04-5-089-03-315    09/26/86     F_DERALSHARE/UI,TIDtAS
 04    ETA     UIS       04-5-098-03-315    07/18/86     F_DERAL SHARE/UI,
 04    ETA     UIS       04--6-010-03-315   09/10/86     FEDERAL SHARF_I, NOZIH CARfLINA

 04    ETA     SESA      04-5-026-03-325 09/02/86        _      USE OF _     FUIkDS
 04    ETA     SESA      04-6--037-03-325 04/01/86       AL IIqTJSTRIALRIIATIONS
 04    EPA     SESA      04-6-083-03-325 07/21/86        GEONGIA DEPT OF LABOR

 04    ETA     JTPA      04-6-041-03-340 04/15/86        NDK[H CARCLINA,WAKE OJJNIY
 04    ETA     JTPA      04-6-042-03-340 04/15/86        _     CARfLINA,_          dlrNiY
 04    ETA     JTPA      04-6-043-03-340 05/06/86        ALABAMA _C/O]_        AFFAIRS
 04    ETA     JTPA      04-6-053-03-340 06/10/86        _,LE       AL
 04    ETA     JTPA      04-6-056-03-340 06/04/86        hDK[H CAR(LINA,OJMBER[ANDOJTNfY
 04    ETA     JTPA      04-6-057-03-340 06/16/86        TENNESSEE,__7__IVAN
 04    ETA     JTPA      04-6-059-03-340 06/06/86        BREVARD OJTNIY
 04    ETA     JTPA      04--6--060-03-34006/16/86       _ORIDA, LEON 0d/NYf
 04    ETA     JTPA      04-6-061-03-340 06/11/86        NC, DAVIDSON
 04    ETA     JTPA      04-6-065-03-340 06/18/86        9L, _        O37NIY
 04    ETA     JTPA      04-6-065-03-340 07/10/86        SC, _          CITY OF
 04    ETA     JTPA      04-6--070-03-340 07/30/86       _I_,ORAh_E OJJNIY
 04    ETA     JTPA      04-6-071-03-340 08/19/86        MISSISSIPPI_4P SEC (IIMM
 04    ETA     JTPA      04-6-073-03-340 08/13/86        SOJIH CAR(]LINA_   SEC (IIMM
 04    ETA     JTPA      04-6-075-03-340 08/27/86        SOUR CAROLINA_R'S         OFFICE
 04    ETA     JTPA      04-6-078-03-340 08/29/86        MIDDLE GEONGIA (I_SRTINC
 04    ETA     JTPA      04--6--080-03-34008/28/86       GEONGIA-SECYOF SPATE
 04    ETA     JTPA      04-6-081-03-340 08/29/86        DADE OdTNIY




                                        -94-
                                               DA_ Sm%T
                             AUDIT            TO PR0_
R_ICN   _       PR0_     l_l{r NL_B_            _         NA_ OF ;DDIT/AUDITEE



 04     EPA     (]ETA    04-5-4_3-03--345 04/22/86        SCIYlHCARDL_'         S OFFICE
 04     ETA     CETA     04_044_)3-3 45   05/13/86        _       IN
 04     ETA     (_PA     04,-6-04.5--03-345
                                          05/13/86        MI{MPHIS[IN
 04     ErA     CETA     04-6-046-03-345 05113186         _       IN
 04     ETA     _        04-6-048-03-345 05/16/86         ALABAMA DE_ OF I_)UCATICN
 04     ETA     _        04-6-048-03-345 06/11/86         NIP,
                                                             XH CAIK]LINADPT _
 04     ETA     CETA     04-6-052-433-345 05/16/86        _        CITY OF
 04     ETA     CETA     04-6-062-03-345 06/12/86         HILL_
 04     ETA     CET_     04-6-4377-03-345 08/20/86        __ZRIDA,PASCO (II/NIY

 04     F.,SA   O_/CP    04-5-115-04-430      09/12/86    MID SI_ PROI_XCLtE)I_I)
                                                                               _     FI_

 04     OSHA    OSI-]_   04_o-076-I0-I01      08/19/86    _     _INA     IXL

 04     ]_S     ]3LSG    04-6-039-11-111      04/01/86    AL DFf ]!q_JSTRIAL
                                                                           R_ATIC_S
 04     _       ]3LSG    04-6-069-ii-iii      07/21/86    GA DEPT OF IAB(_

 04     0T _Y   0T a_Y   _54-98-599           06110186    FI/)R]DA,
                                                                  V(I;JSIA
 04     Or _Y   Or _     04,-6-055-98-599     06106186    _       _       (II]NIY
 04     0]7_Y   OT _Y    04_o-4358-98-599     05/29/86    H/)RI]3A,
                                                                  MAIqkTEEOJJNIY
 04     OY _Y   OT _     04-6-068-98-599      07/11/86    CA, _

 05     ErA     J'IPA    05-6-097-01-001 09/10/86         CKI0 DEPT. OF ]_DUCATION
 05     ErA     J'IPA    05-5-025-03-340 05/02/86         DU PI_GE
 05     ETA     J'IPA    05-5-4962-438-34006/04/86        INDIANA(XXI/PATIaNAL DEV
 05     ETA     J'IPA    05--6-Oll--03-34004/04/86        ]IJ/NOIS,IKXI<_       (%I]NIY
 05     _       J'IPA    05-6-012--03-340 06/04/86        N_BRASKAD_
 05     _       J'IPA    05-6-01_3--(13-340
                                          07/29/86        aHIO, OJYAHOGA03
 05     ETA     JXPA     05-6-037-03-340 04/04/86         MZS_,     _,           CITY OF
 05     ErA     JTPA     05-6-039-(13-340 04/04/86        M]I)-0HIOR]_      P[ANNIN_
 05     ETA     J'IPA    05-6-042-03-340 04/04/86         If%DIANA,DI_214ARE03
 05     ETA     JTPA     05-6-066-03-340 06/12/86         (XX]DHUERICE _%SHA (I%]N[I[L
 05     ETA     JTPA     05--6-071-438-34006/10/86        II_DIANA,C#aY, CITY OF
 05     ErA     J'IPA    05-6-075-438-340 06/17/86        _     MISSOURI]lqC.
 05     ETA     JTPA     05--6-079-03-340 08/11/86        WI. _,         CITY OF
 05     ErA     JTPA     05-6-086-{)3-340 08/12/86        0HIO, PAMIL_]N
 05     EYA     JTPA     05-6-093-(13-340 06/17/86
 05     ETA     J'IPA    05-6-094-03-340 09/03/86         I(_4A0FFICEFOR FuANNIN3_

 05     ETA     CETA     05-3-126-O3-345      06/10/86    INDIAN_ GARY, CITY OF
 05     ETA     C_-TA    05-3-236-03-345      04/10/86    ALLEN
 05     ETA     _        05--4-138-<).3-345   04/10/86    MINNFAELIS




                                              -95-
                                           DATE SN_f
                               AUDIT      TO PROGRAM
RIIIIC__-_     PRf_     R_RT     Nd_R       /_;I_L-'Y N_   CF _IJDIT/_I/DITEE



 05    _A      CBTA     05-4-139-O3-345 04/10/86      MINNF_IS
 05    ETA     CETA     05-_169-03-345   04/04/86     S_;IN_ 0_      _MfI6YMP2q/
 05    ETA     _        05-_171-03-345   06/04/86     NE MI(I_    0ONSORTII/M
 05    ETA     CETA     05-4-194-O3-345 06/05/86      WAUKF_._]A
                                                               CEA.EKEEWA CIqSIRT
 05    ETA     CETA     05-5-037-03-345 06/13/86      _         0UJNI_
 05    ETA     CETA     05-5-048-03-345 04/07/86      IL, KANE
 05    ETA     CETA     05-5-053-03-345 04/04/86      WI, _         CI3UNFf
 05    ETA     (_TA     05-5-055-0-3-345 06/05/86     II_IANAP(]LIS
 05    ETA     CETA     05-5-056-03-345 04/04/86      DI_A_EAI_
 05    ETA     _        05-5-076-03-345 04/11/86      (IqE/DATRIBE/WI
 05    ETA     CETA     05-5-083-03-345 06113186      CBI_    MAYORS (_FICE
 05    _       ¢ETA     05-5-084-03-345 06/13/86      (_II_ MAYORS OFFICE
 05    ETA     CETA     05-6-02.3-03-345 04/04/86     _       CITY OF
 05    ETA     (_-TA    05-6-028-03-345 06/04/86      I(7_APHBLIC INS'I_JCIXCN
 05    ETA     (_fA     05--6-033-03-345 04/04/86     II_IANA_      OF VOC/_   If)
 05    ETA     (ETA     05-6-045-03-345 04/10/86      KANSAS CITY
 05    _       CETA     05-6-046-0.3-345 04/04/86     INDIANA_      OF VOC/I[_-I
 05    ETA     CETA     05-6-047-03-345 04/10/86      I_), TIPPI_AN(_03
 05    ETA     CETA     05-6-048_345     04/10/86     IND, _          03
 05    ETA     CETA     05-6-055-03-345 06/04/86      MISSOURI,II_D_I_X]Eo CITY OF
 05    ETA     CETA     05-6-056-03-345 06/,04/86     II_)IANA,_       03
 05    ETA     CETA     05-6-058-03-345 06/13/86      ANN
 05    ErA     CETA     05-6-064-03-345 06/04/86      INDIANADEP OF _(_
 05    ETA     CETA     05--6--072---(13-345
                                         06/10/86     GAIRY_II_3IANA
 05    E'r_A   CETA     05-6-082-03-345 06/24/86
 05    ETA     (_-TA    05--6-083--03-34506/26/86     I(7_ADEP OF SOCIAL SVCS
 05    ETA     (]_YfA   05-6-087-03-345 08/12/86      _P_E&T                   CSRr
 05    ETA     (_TA     05-6-090-03-345 08/19/86      l(}qAB_ANNIIq_/PR(]G
 05    ETA     CETA     05-6-092-0"3-345 09/05/86     MI(}HGAN,_          (flINTY
 05    ETA     CETA     05-6-096-03-345 09/08/86      _

 05    ETA     OSPPD    05-6-024-03-350   05/01/86    f_IO _;IM3
 05    ETA     OSPPD    05-6-049-03-350   04/14/86    INDIANA,MUNL'IEoCITY OF
 05    ETA     OSPPD    05-6-051-03-350   04/114/86   I_B_     DEP CN _;INg

 05    _       IXhv-P   05-6-038-03-360   04/04/86    INDIANA_13]i_IS/_        S}!IK'VICES

 05    _       _        05-6_17-05-001    06/19/86    _    INEEENAL_S/TRAV_L

 05    _       _        05--6-009--06-61004/04/86     IL MINES AhD MINERALS

 05    _SAM    (]A      05-6--081-O7-711 06/30/86     _      NTI_DCASH




                                          -96-
                                            DATE S_f
                             AUDIT         TO PRCGRAM
RII_IC__Gq_L'X PROGRAM   I_IK)RT
                               I_I_BER       _          NAME CF _I/DIT/#IDITEE



 05    (I_AM   DI:GM     05-5-073-07-740    07-21-86    _           STAFFQUALIFICATIONS

 05    OASAM   OCD       05-6-019-07-742    09/24/86    CA ]N3USTR_ATIONS

 05    OSHA    AEMIN     05-6-015-10-001    09/30/86    O_4A _       0ONPRfLS/TRAV]_

 05    OSHA    OSH_3     05-5-063-10-101 0_II/86        II_3IANADIVISIONOF lABOR
 05    OSHA    OSH_;     05-5-082-10-101 07/25/86       _       BLDG TRADES
 05    O_A     OSH_3     05-6-O27-10-101 04/04/86       KANSAS HEAL_Iq/]_V_
 05    OSHA    OSH_3     05--6-4967-10-10105/13/86      Ii_DIAR_I/NIVERSIXY
 05    OSHA    OSPT_     05-6-073-10-101 06/10/86       MI_      I:_BLICHFALEH

 05    HLS     AEMIN     05-6-016-11-001 08/18/86       ELS INYENNALOONIRfL/TRAV_L
 05    I_S     ADMIN     05--6-022-11-001 05/15/86      _LS INTERNAL_TRAV_L

 05    OT _Y   OT _      05-6-052-98-599    05/01/86    I(_A _'       S O_qcE
 05    OT _Y   OT _Y     05-6-059-98-599    05/01/86    MI(_ D(]LOCM_ Sa_VICES
 05    OT _Y   OT _GY    05-6-060-98-599    06/12/86    I@BRASIAADMIN S_VICES

 06    VETS    AI3MIN    06-6-546-02-001    08/19/86    SCI/IHINkKOFA
 06    _       AEM]Iq    06-6-561-02-001    07/17/86    LCUISI_4NA
 06    VETS    ADMIN     06-6-576-432-001   07/10/86    NRRCIEDAKOTAJOB SERVICE
 06    _       ADMIN     06-6-584-02-001    08/14/86    [[f.A_H

 06    ErA     USES      06-5-4BI0-438-32007/30/86      _        JOBS TAX (IRIDIT

 06    ETA     SESA      06-6-526-03-325    04/23/86    TEXAS _          _SION
 06    ETA     SESA      06-6-531-03-325    05/-1/86    (II_RADOES
 06    ETA     SESA      06-6-535-<13-325   07/17/86    LOUISIANA
 06    ETA     SESA      06-6-542-03-325    08/19/86    S(lYIHDAKOTA D(]L
 06    ETA     SESA      06-6-563--03-325   08/14/86    UPT_
 06    ETA     SESA      06-6-573-{13-325   07/10/86    _     DAK(YfAJOB SERVICE

 06    ETA     JIPA      06-5-813_3-340     05/12/86    M]NTANA AFL-CIO
 06    ETA     JTPA      06-6-536-03-340    07/17/86    lOUISIANA
 06    ETA     J'IPA     06-6-543-433-340   08/19/86    _    [iaF/YPA
                                                                    DfL
 06    ETA     JTPA      06-6-547-03-340    08/19/86    _C_S-DEPAKIMI_NTOF
 06    ETA     JTPA      06-6-574-03-340    07/10/86    _    DAKOTA JOB S_'VICE
 06    ETA     J'IPA     06-6-583--03-340   08/14/86    UTAH

 06    ETA     (_TA      06-6-517-O3-345    05/01/86    TEXAS, CIXY OF I_ PASO
 06    ETA     (_-TA     06-6-525-03-345    04/11/86    O]L_    BOULDER




                                            -97-
                                            D_IE SH_T
                             AUDIT         TO I_.CI;RAM
P4K_IC__Gq_L-X PRD3RAM   RI_I{FNL_BER        _         NAME CF _IDIT/AUDITEE



 06    ETA     (ETA      06-6-530-03-345   07/17186    TEXAS, CORPUS (_ZTI, CITY OF
 06    ETA     CETA      06-6-534-03-345   06/26/86    lq_ MEXIO0° ALBL_UI_,  CITY OF
 06    ETA     CETA      06-6-539-03-345   07/17/86    I/3UISIANA
 06    ETA     (_TA      06-6-544-03-345   08/19/86    SO/IHDAKOTA D(Tu
 06    ETA     (h-TA     06-6-548-03-345   08/19/86    TEXAS
 06    IIFA    CETA      06-6-553-03-345   05/06/86    CKIAH(]MA-CITY}HWAN
 06    ETA     (]ETA     06-6-554-03-345   07/03/86    Ifl]ISIANA,CITY OF _   Rfl[_
 06    ETA     ([_-TA    06-6-564-03-345   08/14/86
 06    EYA     (_TA      06-6-581-03-345   07/10/86    _    DAKOTAJ(B SI_VICE

 06    ETA     OSPPD     06-6-562-05-350   05/01/86    _       UNIV AT BAXIIq

 06    ETA     DOWP      06-6-533-03-360   04/21/86    N_ M]DLIO0_;II_

 06    ETA     DSFP      06-6-575-03-365   07/10/86    _    I_KOTA J(B S]_<'VICE

 06    ESA     DL}WC     06-6-556-04-432   04/'29/86   TEXAS-R]_RAB
                                                                 ]LITAX'I(Iq
                                                                          _SIC_q

 06    _       GNTEFZ    06-6-555-06-601   04/28/86    I_ MEXIOO-I_qI_f/_S
 06    I_      _         06-6-567-06-601   08/14/86    UTAH
 06    MESA    (7KIEF_   06-6-582-06-601   07/18/86    iCUISIANA
 06    MSHA    _         06-6-586-06-601   08/26/86    SO/IHDAK(TZAHEALEH

 06    OASAM   OSIM      06-5-561-07-731   07/15/86    FTS UTILIZATICN

 06    OSHA    OSHTK;    06-5-814-10-101   05/12/86    M]FPANAA_-CIO
 06    OSHA    OSH_      06-6-538-10-101   07/18/86    I/]UISIANA
 06    OSHA    OSH_      06-6-559-10-101   05/21/86    lq_ MEXX(I>-HFALI[H/ENV_
 06    0SHA    _         06-6-560-10-101   05/21/86    [[EXASHEALEH
 06    OSHA    _         06-6-565-10-101   06/14/86    UTAH
 06    OSHA    OSK_      06-6-569-10-101   08/18/86    NOREH DAKOTA

 06    HLS     HLSG      06-6-532-11-111   04/23/86  0[XK)RADOIABOR/_
 06    HLS     BL_       06-6-537-11-111   07/17/86  I/TJISIANA
 06    HLS     BL_       06-6-545-11-111   08/19/86  SO/IH DAKOTA D(Tu
 06    N_Z     ]_q3      06-6-566-11-111   08/14/86  IYPAH
 06    BLS     BLS3      06-6-570-11-111   05/21/86  I_ MEXIOD-HFALIIH/]R__
 06    HLS     BLS3      06-6-572-11-111   05/121/86 TEXAS HFALEH
 06    _       _         06-6-578-11-111   07/10/86  M3RXH II_KOTAJaB SEKVICE
 06    HLS     BL_G      06-6-802-11-111   04/121/86 AI_SAS WOI_KEP,S O_ O_




                                           -98-
                                                 DAEE S_NT
                                  AUDIT         TO PRfl;RAM
P,I_ION_           FRfbORAM   I_K_ORT
                                    IqJ_BER       _         _      CF _JDITIAUDITEE



 06    OT   _Y     (YfABY     " 06-6-571-98-599    08/21/86   WYOM]]qSVEYS AFFAIRS
 06    OT   _      OT _Y        06-6-579-98--599   06/02/86   _   (IRI2ANSOIC
 06    OT   AGY    OT _         06-6-585-98-599    07130186   0CLORAIX)SPRIN3S,CITY OF
 06    OT   _6"f   OT _         06-6-587-98-599    08/21/86   TEXAS, SAN ANIUNIO,CITY OF
 06    OT   _      OT _Y        06-6-588-98-599    08/22/86   LOJISIANA,JEFFENS(_PARISH
 06    OT   _      OT _         06-6-597-98-599    09/19/86   IfPliH-SE
                                                                      UTAH ASSOC/LOCAL
 06    OT   #6"Y   OT #_Y       06-6-6(B-98-599    09/19/86   TEXAS-DAI/m_

 09    VEX_        ADMIN      09-6-526-02-O01      05/20/86   SFATILE

 09    ETA         UIS        09-4-534-03-315      09/16/86   FEDERAL_            TAX ACT
 09    ETA         UIS        09-6-533-03-315      08/08/86   _     IX]L

 09    ETA          SESA      09-6-002-03-325 04/24/86        CALIFORNIA
 09    ETA          SESA      09-6-52_3-43.3-325
                                               06109186       ARIZONA ]KI)N
 09    ETA          SESA      09-6-525-03-325 08/08/86        H_4AII STAEE OF DEPT OF lABOR
 09    ErA          SESA      09-6-527-08-325 06/20/86        (Rraq
 09    ETA          SESA      09-6-532--03-325 08/08/86       _     IX]L

 09    ETA         J'/PA      09-6-548-03-340 09198186        ALAS<A DEFT/ _   I_IONAL AFFAIRS
 09    ETA         J'IPA      09--6-552-03-340 06/11/86       I_-YADA

 09    ETA         (_"TA      09-6-010--(13-34505/13/86
 09    ETA         _          09-6-014"<)3-345 09/19/86 CITY OF _       CASH RE_N_ILIA_TICN
 09    EYA         CETA       09-6-021-03-345 04/01/86  lOS
 09    ErA         (_fA       09-6-522-03-345 04/18/86  CA, V_EUP_ (l_aX
 09    ETA         _          09-6-528-03-345 04/01/86  POEIIAI_
 09    EPA         (_TA       09-6-531-03-345 06/24/86  CA, SUNNYW_LE,CITY OF
 09    _           (_-T.A
                        "     09-6-535--<13-34508108186 WN, TA(I]MA-PIER£_
 09    ErA         CETA       09-6-544-03-345 09105186  WA, KITSAP OZt%EY
 09    ETA         (_2A       09-6-546-03-345 0912.5186 I,_,_        (_

 09    ETA         DINAP      09-5-074-(13-355 09/16/86       I_DIANC_F/]_RSINC
 09    ErA         DINAP      09-5-4386-413-35508/18/86       _       (_]EYE_ _IBE, INC.

 09    ETA         D(K_       09-6-519-433-360 04/14/86       _I     fiX]NIX

 09    EY_A        DSFP       09-5-026-493-365 07/25/86       UTAH _    D_;]K_PMEN2(DRP.
 09    ErA         DSFP       09-5-4332-03-365 09/26/86       _      & SFAS(]NAL
                                                                               _0I_[ERS    REVI]_
 09    ETA         DSFP       09-5-035-03-365 09/26186        M_RANT _       F_          PROGRAM




                                                   -99-
                                             I_f._ Si_qT
                              I_IIDIT       TO
R_IC_   _        _        R_ORT Nt_           i_._'Y        NA_ OF ,OJDIT/,_JDI'I_



 09     ETA      DSEP     09-5-038--03-365 04/15/86         K_NIUfKYFARM_OI_UB_S YRfGRAM_,INC.
 09     ETA      DSFP     09-5-039-433-365 04/15/86         MET/MEII_
 09     ETA      DSFP     09-_365          04/15/86         HOME ID LIV_IHOCD (HELP)
 09     ETA      DSFP     09-5-043-03-365 04/15/86          _S
 09     ETA      DSFP     09-5-047-03-365 04/14/86          _ (IDPPROGRAM (TOPS)
 09     ETA      DSFP     09-5-049-03-365 04/15/86          AL _
 09     EPA      DSFP     09-5-O51-03-365 04/15/86          AR HJMAN DEV 00RP.
 09     ETA      DSFP     09-5-055-433-365 04/15/86         I_rRALNY _(31_ER    C_P
 09     ETA      DSFP     09-5-057-433-365 04/15/86         I_W ]_-IAhD __
 09     ETA      DSFP     09-5-061--03-365 04/15/86         I_WCAP,
 09     ETA      DSFP     09-5-062--08-365 05/30/86         _I_JRAL       ]_MPOPP
 09     ETA      DSFP     09-5-4966-03-365 04/15/86         _       VALLEY OPP (NIR (C_(XT)
 09     ETA      DSFP     09-5--071-03--36504/15/86         _0    _       _       (IMC)
 09     ETA      DSFP     09-6-4X]6_6-365 09/19/86          CALIF _     D_PMENf     CORP.
 09     ETA      DSFP     09-6-4X)9-(B-365 09/19/86         (]_N_aLV_      OPP [NIR (CVOC)
 09     EPA      DSFP     09-6-536-03-365 08/18/86          _     _    ASSIST CDRP
 09     ETA      DSFP     09--6-541--03-36508/26/86         'INC_PO_R]NITY_        IN(]

 09     EPA      O7C      09-5-204q33-370 09/26/86          F&C _91MAKf
 09     EPA      (IIC     09-5-273-43_3-37007/30/86         IIEYIUNJC O-AURORA
 09     ETA      07C      09-5-281-03-370 09/15/86          00__        9Y,
                                                                          ANS SY_
 09     ETA      O7C      09-5-282-03-370 09/2,6/86         _          PROPEIRTY_         S'f_
 09     ETA      (17C     09-5-283-438-370 07/15/86         JOB ODRPS GNIR'S
 09     ETA      O7C      09-5-284-03-370 (B/2.1/86         JOB OORPS LIVING
 09     ETA      (UC      09-6-011-O3-370 09/12/86          SOIIH BRCNK JfB OORPS (_NIERALDIT
 09     ETA      O7C      09-6-O2.%-<B-370 08/15/86         _         _GINEERS
 09     ETA      07C      09-6-549-03-370 09125186          NEVADA,_           C_

 09     _        I_BP     09-5-036-05-510   07/15/86       . PI_SI(_I WI_FAREB_EFIT PRCGRAM SURVEY

 09     _        GI_EES   09-6-530-06-601 05/05/86         _       HI_    _D
 09     _        _        09-6-534-436-601 08/20/86        _        _          19KV

 09     OASAM    _        09-6-524-07-741   05/08/86       WASH]N21[_,_              OF

 09     C)S_]A   OSK_     09-6-024-10-101   09/23/86       _   DIREUFIC_S-C_A
                                                                            BI/)GO3NSTR _ADES
 09     OSHA     _        09-6-529-10-101   05/05/86       _      HIGBI_ ED
 09     OSHA     _        09-6-543-10-101   08/22/86       WASHIED'II_IABOR/I1q)

 09     OT AGY   OT _     {)9-6-520--98-59904/01186        CA, _     BFA_, CITY OF




                                            -i 00-
                                              DAEE S_rf
                              AUDIT          TO PRDGRAM
RIK_ION_        FROGRAM   R_OHr HJMBER         _          _    OF AUDIT/AHDIEEE



 ii    VEI'S    _         11-5-205-02-001    09/18/86     VEI_VII_INIA-I_OP  _IAN_
 Ii    _        ADMIN     II-6-0_-02-001     07/14/86     SF.ATILE-KI_ (IUNIY PIC

 11    ETA      ADMIN     11-6--006-03-001   07/11/86     RESflLVtD._IDITS

 II    EFA      SESA      11-6-061-O3-325    09/18/86     VEC I_OP PR(b-'RAM

 Ii    ETA      JTPA      11-6-045-03-340 05/12/86        PACIFICTRUST _ZRRITCRIFZ
 ii    ETA      JTPA      11-6-054-438-340 06/12/86       WY(I_IN_

 ii    ETA      OSPPD     11-6-039-03-350    06/13/86     AZ EOON HANNIN3 & DEV
 Ii    ETA      OSPPD     11-6-049-03-350    05/12/86     ROY LITK2_OHN ASS_. INC.

 II    ETA      DINAP     11-6-025-03-355    07/30/86     AM INDIANOUMM (IFRASSN
 ii    ETA      DINAP     11-6-033-03-355    05/09/86     SANI_. SIOJX TRIBF_/NE
 ii    ETA      DINAP     11-6-034-03-355    06/18/86     N[_IHERNII_DIAN PU]_LOS
 ii    ETA      DINAP     II-6-035-{B-355    04/11/86     _DCTT_ NATI(_ CF OK
 Ii    ETA      DINAP     11-6-036-03-355    04/11/86     TAOS FJ_LO
 Ii    ETA      DINAP     II-6-037-{B-355    04/18/86     JICARILIAAPA(_Z II_BE
 II    EPA      DINAP     11-6-041-03-355    04/24/86     NE .INDIAN(I_
 ii    ErA      DINAP     11-6-042-03-355    04/24/86     _     NATION CF CK
 Ii    ETA      DINAP     11-6-043-03-355    04/29/86     M_KMINEE IBDIAN _RIBE_I
 Ii    ETA      DINAP     11-6-044-03-355    04/29/86     MI BABD/_       IhDIANS
 ii    ETA      DINAP     11-6-047-03-355    06/03/86     DENVI_ IBDIAN_       INC.
 II    ETA      DINAP     11-6-057-03-355    07/17/86     POARCHBABD OF (P,E_ IBDIANS
 ii    EPA      DINAP     1I-6-062-{B-355    07/24/86     TANANA (I!IEFS
 ii    ETA      DINAP     11-6-067-03-355    08/01/86     SH_IBKLETRIBE/_L

 Ii    ETA      _       11-5-034-O3-360      07/18/86     _     _    INC
 ii    ETA      D(KIP   11-6-048-03-360      05/12/86     NEVADA _    RESOJRCFZ
 Ii    ETA      D(_P "I 11-6-056-03-36/)     06/25/86     _     CAI_LINA_Ih_
 11    ETA      DfK1P   11-6-059-03-360      07/14/86     (I/)ER_      _      SVCS

 ii    ETA      DSFP      11-4-<)77-05-365 04/11/86       IA R_ZA UNIDA DE OHIO

 ii    ETA      07C       1I--4-2(D-433-37004/14/86       LEO IIALY
 ii    ETA      OJC       11-4-201-03-370 07/10/86        I_C
 II    ErA      O7C       11-6-058-03-370 07/10/86        _       00RP

 ii    (I_SAM   (IMP      11-6-072-O7-710    08125186     _        (I_IRfL _         _   SVCS




                                              -I01-
                              AUDIT           TO PR_
RI_IC_ _        _         R_OEr R[PBI_          _ENCY      T@_MECF #_IDIT/AIIDITEE



  11    _        DI:_M    11-5-141-07-740     04/24/86     _TINI;I_         I_TISVCS
  11    _        DPGM     11-5-142-07-7/_0    04/24/86     _
  ii    _        DIK_     11-5-144,-07-740    04/24/86     CRI
  ii    _        DPGM     11-5-145-07-740     04/11/86     NEIRC)I@:
                                                                  SOLUTIONS
  ii    OASAM    DKIM     11-5-146-07-740     06/10/86     _       DATA SY_

  Ii    (I_BAM C_         ii-5-134-07-741     04/01/86     00MPEX CORPORATI(_
  11    QA,..q#_MOP       11-6-O50-07-741     05/12/86     _   L_(_HN    ASSOC

  12    ETA      ADMIN    12-6-012-09-001     09/30/86     RFIG OPTIONS/FFASIBILITY
                                                                                  ANALYSIS

  12    OSHA     AIMIN    12-6-016-10-<901 09/30/86        OSHA _        REPORT/N3



* __.Y       LISTI_ AS ISSUI_DIN FINAL IN _    PRE%_(IIS
                                                       _            REPONT;WERE ISSUEDIN
  FINAL BLR_IN__   REPONTIN3PI_I(D.




                                              -102-
                         ABBREVIATIONS           USED         IN   THIS   REPORT



IThe Regions    are:
    02   New York
    03   Philadelphia
    04   Altanta
    05   Chicago
    06   Dallas
    09   San Francisco
       Ii      Washington
       12      Financial         Management           Audit        Division
       16      Division         of Advanced           Audit        Techniques

2The      Agencies       are:
       BLS           Bu]feau     of   Labor      Statistics
       ESA           Employment      Standards    Administration
       ETA           Employment      and Training     Administration
       MSHA          Mine   Safety    and Health     Administration
       OASAM         Office    of the Assistant       Secretary      for
                     A_ninistration        and Management
       OLMS          Office    of Labor-Management         Standards
       OSHA          Occupational       Safety  and Health       Administration
       PWBA          Pension    and Welfare     Benefits      Administration
       SOL           Office    of the Solicitor
       VETS          Veterans     Employment    and Training        Service

       COMM          Department        of     Commerce
       DOE           Department        of     Energy
       HHS           Department        of     Health   and Human            Services
       HUD           Department        of     Housing   and Urban            Development

3The    types        of programs      audited    are:
    ADMIN            Agency    administration
    BLSG             Bureau    of Labor     Statistics      Grantees
     CETA            Comprehensive       Employment      and Training       Act
    CMSH             Coal   Mine   Safety    and Health
    COMP             Comptroller
    CT/EUW           Multiprogram      audits    of CETA,      SESA,    UIS and WIN
     DCMWC           Division     of Coal    Mine Workers'        Compensation
     DFLSO           Division     of Fair    Labor    Standards      Operations
     DINAP           Division     of Indian     and Native      American      Programs
    DIRM             Directorate      of Information        Resources      Management
    DIT              Directorate      for Information        Technology
    DLHWC            Division     of Longshore      and Harbor       Workers'
                     Compensation
       DMPS          Directorate      of Management       Policy     and Systems
       DPGM          Directorate     of Procurement         and Grant      Management
       DPM           Directorate     of Personnel       Management




                                              -103-
    DSFP     Division    of Seasonal     Farmworker      Programs
    DOWP     Division    of Older    Worker    Programs
    DVOP     Disabled    Veterans    Outreach     Program
    EN/PRG   Enforcement     Program    (OSHA)
    FECA     Federal    Employees'    Compensation       Act  programs
    GRTEES   Grantees
    JTPA     Job Training      Partnership      Act
    LSHWCA   Longshore     and   Harbor   Workers'    Compensation       Act
    MSFW     Migrant    and Seasonal      Farm Workers      (also    see DSFP)
    MSHAG    Mine   Safety    and Health     Administration       grantees
    OA       Office    of Accounting       (OASAM)
    OCD      Office    of Cost    Determination
    OFCCP    Office    of   Federal    Contract   Compliance      Programs
    OJC      Office    of   Job Corps
    OP       Office    of   Procurement:
    OSEC     Office    of the Secretary
•   OSHAG    Occupational       Safety    and Health     Administration
             grantees
    OSPPD    Office    of Strategic       Planning    and Policy
             Development
    OSTM     Office    of Space     and Telecommunications          Management
    OT AGY   Agency    other   than    DOL
    SESA     State    Employment     Security     Agency
    TJTC     Targeted     Jobs   Tax Credit
    UIS      Unemployment     Insurance    Service
    USES     United   States   Employment     Service
    WIN      Office   of Work    Incentive    programs




                                 -104-
                         FACT      SHEETS          HIGHLIGHTS



In the last      semiannual     report,  OIG initial   the following
fact    sheets   which   are part    of a series  designed   to provide
general     information     and guidance    to DOL employees   and
members     of the general     public.

Fact   Sheet   No.       Topic

OIG:   86-1              "OFFICE        OF     INSPECTOR           GENERAL"

OIG:   86-2              "REPORTING            FRAUD,         WASTE        and      ABUSE"

OIG:   86-3              "ETHICS        and     INTEGRITY             in     the     WORKPLACE"

If you would     like   a copy     of    any       of   these         Highlights,                please
write to:

U.S.   Department    of Labor
Office    of Inspector     General
200 Constitution       Ave.,   N.W.,         Rm.     S-5506
Washington,     D.C. 20210




                                        -105-
                                     ¢: U.S.   GOVER_NM]KNT   PRINTING     OFFICE   : 1986   O   - 168-205
                Copies of this report may be obtained
                from the U.S. Department of Labor,
                Office of Inspector General,
                Room S-5506
                200 Constitution Avenue N.W.,
                Washington, D.C. 20210.




                    DEPARTMENT OF LABOR
                        OIG HOTLINE
                 357-0227 (Washington     Dialing Area)

         (800) 424-5409 (Toll Free--outside   Washington Area)

         The OIG Hotline is open 24 hours a day, 7 days a
         week to receive allegations of fraud, waste, and
         abuse. An operator is normally on duty on work-
         days between 8:15 AM and 4:45 PM, Eastern Time.
         An answering machine handles calls at other times.
         Federal employees may reach the Hotline through
         FTS. The toll-free number is available for those
         residing outside the Washington Dialing Area who
         wish to report these allegations. Written com-
         plaints may be sent to:

                  OIG Hotline
                  U.S. Departmentof Labor
                  Room $1303 FPB
                  200 Constitution Avenue, N.W.
                  Washington, D.C. 20210
i rill                                                      ............
     Oepart entof.abor
Washington,
                    UNHHI
Office of Inspector General
              D.C. 20210
                                      f{_        _




Official Business
Penaltyfor pnvate use $300
P116                            Postageand Fees Pa_d
                              U S Departmentof Labor
                                            LAB 441

                              THIRD   CLASS   MAIL
